<html>
<title> - ENFORCEMENT OF THE VOTING RIGHTS ACT IN THE STATE OF TEXAS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                  ENFORCEMENT OF THE VOTING RIGHTS ACT 
                            IN THE STATE OF TEXAS

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON THE CONSTITUTION,
                   CIVIL RIGHTS, AND CIVIL LIBERTIES

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 3, 2019

                               __________

                           Serial No. 116-18

                               __________

         Printed for the use of the Committee on the Judiciary

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

        Available http://judiciary.house.gov or www.govinfo.gov
        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-078                       WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
        
        
        
        
                       COMMITTEE ON THE JUDICIARY

                   JERROLD NADLER, New York, Chairman
ZOE LOFGREN, California              DOUG COLLINS, Georgia, Ranking 
SHEILA JACKSON LEE, Texas                Member
STEVE COHEN, Tennessee               F. JAMES SENSENBRENNER, Jr., 
HENRY C. ``HANK'' JOHNSON, Jr.,          Wisconsin
    Georgia                          STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          LOUIE GOHMERT, Texas
KAREN BASS, California               JIM JORDAN, Ohio
CEDRIC L. RICHMOND, Louisiana        KEN BUCK, Colorado
HAKEEM S. JEFFRIES, New York         JOHN RATCLIFFE, Texas
DAVID N. CICILLINE, Rhode Island     MARTHA ROBY, Alabama
ERIC SWALWELL, California            MATT GAETZ, Florida
TED LIEU, California                 MIKE JOHNSON, Louisiana
JAMIE RASKIN, Maryland               ANDY BIGGS, Arizona
PRAMILA JAYAPAL, Washington          TOM McCLINTOCK, California
VAL BUTLER DEMINGS, Florida          DEBBIE LESKO, Arizona
J. LUIS CORREA, California           GUY RESCHENTHALER, Pennsylvania
MARY GAY SCANLON, Pennsylvania,      BEN CLINE, Virginia
  Vice-Chair                         KELLY ARMSTRONG, North Dakota
SYLVIA R. GARCIA, Texas              W. GREGORY STEUBE, Florida
JOE NEGUSE, Colorado
LUCY McBATH, Georgia
GREG STANTON, Arizona
MADELEINE DEAN, Pennsylvania
DEBBIE MUCARSEL-POWELL, Florida
VERONICA ESCOBAR, Texas

        Perry Apelbaum, Majority Staff Director & Chief Counsel
                Brendan Belair, Minority Staff Director

                                 ------                                

            SUBCOMMITTEE ON THE CONSTITUTION, CIVIL RIGHTS, 
                          AND CIVIL LIBERTIES

                     STEVE COHEN, Tennessee, Chair
JAMIE RASKIN, Maryland               MIKE JOHNSON, Louisiana, Ranking 
ERIC SWALWELL, California                Member
MARY GAY SCANLON, Pennsylvania       LOUIE GOHMERT, Texas
MADELEINE DEAN, Pennsylvania         JIM JORDAN, Ohio
SYLVIA R. GARCIA, Texas              GUY RESCHENTHALER, Pennsylvania
VERONICA ESCOBAR, Texas              BEN CLINE, Virginia
SHEILA JACKSON LEE, Texas            KELLY ARMSTRONG, North Dakota

                       James Park, Chief Counsel
                     Paul Taylor, Minority Counsel
                            
                            
                            C O N T E N T S

                              ----------                              

                              MAY 3, 2019
                           OPENING STATEMENTS

The Honorable Steve Cohen, Chairman, Subcommittee on the 
  Constitution, Civil Rights, and Civil Liberties................     2
The Honorable Jerrold Nadler, Chairman, Committee on the 
  Judiciary......................................................     4

                               WITNESSES

Ernest Herrera, Staff Attorney, Mexican American Legal Defense 
  and Educational Fund
    Oral Testimony...............................................     8
    Prepared Testimony...........................................    10
Gary L. Bledsoe, President, NAACP Texas State Conference
    Oral Testimony...............................................    16
    Prepared Testimony...........................................    19
Jayla Allen, Chair, Rock the Vote
    Oral Testimony...............................................    24
    Prepared Testimony...........................................    26
Michael T. Morley, Assistant Professor, Florida State University 
  College of Law
    Oral Testimony...............................................    32
    Prepared Testimony...........................................    35
Mimi Marziani, President, Texas Civil Rights Project
    Oral Testimony...............................................    49
    Prepared Testimony...........................................    51
Jerry G. Vattamala, Director, Democracy Program, Asian American 
  Legal Defense & Education Fund
    Oral Testimony...............................................    61
    Prepared Testimony...........................................    63
Jose Garza, Garza Golando Moran, PLLC
    Oral Testimony...............................................    73
    Prepared Testimony...........................................    75

                                APPENDIX

Item for the record submitted by The Honorable Sheila Jackson 
  Lee, Subcommittee on the Constitution, Civil Rights, and Civil 
  Liberties......................................................   102
Items for the record submitted by Gary Bledsoe, President, NAACP 
  Texas State Conference.........................................   103
Items for the record submitted by Michael Morley, Assistant 
  Professor, Florida State University College of Law.............   120
Item for the record submitted by Roberta L. Cohen, State Policy 
  Advocate, Texas National Council of Jewish Women...............   133

 
       ENFORCEMENT OF THE VOTING RIGHTS ACT IN THE STATE OF TEXAS

                          FRIDAY, MAY 3, 2019

                        House of Representatives

              Subcommittee on Constitution, Civil Rights, 
                          and Civil Liberties

                       Committee on the Judiciary

                            Washington, DC.

    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 114, Barbara Jordan-Mickey Leland School of Public 
Affairs, Texas Southern University, 3100 Cleburne Street, McCoy 
Auditorium, Houston, Texas, Hon. Steve Cohen [chairman of the 
subcommittee] presiding.
    Present: Representatives Cohen, Nadler, Green, Jackson Lee, 
and Garcia.
    Staff present: James Park, Chief Counsel, Keenan Keller, 
Senior Counsel, Will Emmons, Professoinal Staff Member.
    Mr. Cohen. Good morning, everybody. The Subcommittee of the 
Judiciary Committee of the United States Congress on the 
Constitution, Civil Rights, and Civil Liberties is hereby--and 
I would first like to recognize your provost, Mr. Kendall 
Harris.
    Mr. Harris. Good morning, everyone.
    Voice. Good morning.
    Mr. Harris. Welcome all to the historic campus of Texas 
Southern University. On behalf of our president, Dr. Austin 
Lane, I would like to thank everyone for joining us today for 
this House Judiciary Subcommittee on Constitution, Civil 
Rights, and Civil Liberties official hearing on the Enforcement 
of the Voting Rights Act in the State of Texas.
    I would like to thank Chairman--I would like to thank 
Chairman Cohen for hosting it here at Texas Southern 
University. Of course, our very own representative, Sheila 
Jackson Lee, thank you very much. But we also would like to 
recognize and thank everyone that is on the panel today, along 
with Representative Sylvia Garcia, Chairman of our United 
States House Judicial Committee, Representative Jerry Nadler, 
and our very own representative, Al Green. Thank you very much.
    Thank you to the witnesses that will be testifying 
throughout the hearing, for your testimony will bring value and 
direction to this committee.
    Holding this event on a college campus is quite 
extraordinary, for the topic of civil rights has been somewhat 
lost as a priority for this generation. Many assumptions are 
made by our students, but the awareness of civil liberties must 
be in their forward consciousness.
    So, on behalf of the students, staff, faculty, and 
administrators of Texas Southern University, I thank you for 
allowing us to host this hearing. If there is anything that is 
required of us, please let us know.
    Thank you very much.
    Mr. Cohen. Thank you, Mr. Provost. We appreciate your 
hospitality, and we certainly were inspired by the Mickey 
Leland and Barbara Jordan statements, and history that we are 
able to see. And we are honored to be here.
    This committee has come to order. Without objection, the 
chair is authorized to prepare recesses of the subcommittee at 
any time.
    I welcome everyone today to this field hearing on the 
Enforcement of the Voting Rights Act in the State of Texas. 
Before proceeding, I ask unanimous consent that Representative 
Al Green be permitted to fully participate in this hearing, 
including the ability to sit on the dais, and ask questions of 
witnesses in accordance with subcommittee procedures.
    Hearing no objection, I will now recognize myself for an 
opening statement.
    I thank all of you for attending today. This field hearing 
is part of a series of hearings of the Judiciary Subcommittee 
on the Constitution, Civil Rights, and Civil Liberties, which 
we will be holding over the course of the 116th Congress, to 
assess the present need for a reinvigoration of the 
preclearance requirement of Section 5 of the Voting Rights Act 
of 1965.
    Section 5 requires certain jurisdictions with a history of 
voting discrimination against racial and language minority 
groups, which up until 2013 would have been those 
predominantly, though not exclusively, in the Deep South, to 
obtain approval of any changes to their voting laws or 
procedures from the Department of Justice, or the U.S. District 
Court for the District of Columbia, before such changes could 
take effect.
    The purpose of this preclearance requirement is to ensure 
that jurisdictions that were most likely to discriminate 
against minority voters, and I can tell you, and you probably 
well would suspect that it is those states that are formerly 
part of the Confederacy that still harbor those same feelings 
through their children, and grandchildren, and others, that has 
unfortunately been historically passed down generationally, 
that those states would bear the burden of proving that any 
changes in the voting laws towards minority voters were not 
discriminatory before such changes could take effect. This 
means that they couldn't take action, impede an election, and 
then force people to sue, and have dilatory tactics, and get 
through the election in an improper fashion.
    By placing the burden on jurisdictions with this history of 
discrimination to prove their innocence, Section 5 rightly 
prevented potentially discriminatory voting practices before 
taking effect--from taking effect before they could harm 
minority voters. And they did this throughout the South, and 
they liked to keep doing it. And that is what we are trying to 
work against.
    In this way, Section 5 proved to be a significant means of 
protection for the rights of minority voters. That is why 
Congress has repeatedly reauthorized Section 5 on an 
overwhelming bipartisan basis, most recently in 2006, when we 
passed the Voting Rights Authorization--Reauthorization by a 
vote of 390 to 33, in the Senate by 98 to nothing. That was in 
2006, and it was a republican-controlled House. And I think a 
Republican-controlled Senate, too, and yet it was overwhelming 
390 to 33.
    Unfortunately, the Supreme Court effectively gutted Section 
5, when in the Shelby County v. Holder decision struck down the 
coverage formula that determined which jurisdictions would be 
subject to the preclearance requirement of Section 5. As a 
result, Section 5 has remained--remains dormant unless and 
until Congress approves a new coverage formula.
    While Section 2 of the Voting Rights Act, which prohibits 
discrimination of voting, remains in effect, it is by itself 
less effective and a significantly more cumbersome way to 
enforce the Voting Rights Act. Most importantly, plaintiffs 
cannot invoke Section 2 until after an alleged harm has taken 
place, thereby, eroding the effectiveness of the Act.
    The foregoing brief history of Section 5 explains why we 
are here today in Texas. Texas was a covered jurisdiction under 
the Voting Rights Act in pre-Shelby County days. Perhaps not 
surprisingly, within 24 hours after the Shelby County decision 
was handed down, Texas announced its intention to enact a 
strict photo identification law, which would have a 
disproportionate adverse impact on minority voters. So, Texas 
quickly swung into action and showed why Texas is a state we 
should visit, and why Texas is a problem state.
    The Texas State Advisory Committee on the U.S. Commission 
on Civil Rights found in 2018 that there were barriers to 
voting in Texas in three major areas: Voter registration, 
access to and administration of polling places, and language 
access. Looking at barriers to voter registration alone, the 
committee found, among other things, that Texas was the 44th 
worst state in the nation of voter registration, with only 68 
percent of eligible voters registered to vote, that it 
implemented voter procedures with a disparate impact on Latino 
voters, that there was low registration rates due to public 
discourse about voter fraud, that it enacted measures to chill 
efforts to conduct voter registration drives, and that there 
was widespread misinformation and confusion against citizens 
regarding voter registration.
    Additionally, Texas has been the subject of a number of 
lawsuits, both historically and in recent years, charging the 
legality of its congressional state legislative district maps, 
jerrymandering. The state has been accused of engaging in 
intentional racial jerrymandering in minority vote. Dilution 
and such litigation is ongoing.
    There has been recent litigation against Texas as voter ID 
laws and effort by state election officials to purge voter 
rolls of those, and that it concluded were non-citizens. In a 
move by one Texas city, that had been formally been covered 
under a covered jurisdiction subject to pre-clearance of 
Section 5, to add at-large city council districts in an alleged 
effort to dilute minority representation.
    Texas is the second largest state in the nation, one that 
owes a substantial population increase in recent years to a 
growth of its racially ethnic minority populations. The rise of 
the alleged discriminatory voting practices that I mentioned 
have a serious implication for the citizens of this state, but 
also highlight the need for enforcement of the Voting Rights 
Act. And that means the onus is on Congress.
    And while I don't want to necessarily give--I want to give 
a true picture of where these issues stand, and Texas is 
certainly one of the worst, but so you don't have the worst 
complex, I want you to know my state of Tennessee has done some 
really dreadful things as well, and just passed an awful law 
that makes it criminal to register people in mass voter drives, 
registration drives, criminally and civilly liable, if you make 
errors in those registration drives. And that is really pretty 
unconscionable to make it criminal to register people to vote, 
and maybe leave off a spot, just because of negligence. And it 
is jerrymandering all over.
    But Congress needs to create a new coverage formula that 
will reinvigorate the Act's most important enforcement 
mechanism, this preclearance requirement. Examining the record 
of voting rights problems here in Texas is an important step in 
the process.
    And I want to thank my chairman, Chairman Nadler, who has 
been historically involved in this issue, and is really mostly 
more responsible than anyone other than Congresswoman Jackson 
Lee for us being here today. And he is a great leader on our 
committee. And Chairman Jackson, Chairman Jackson Lee, who has 
been a great leader, too, and somebody who I have learned much 
from in my 13 years in Congress.
    I thank our witnesses and our members for being here today. 
Our other members, Mr. Green and Ms. Garcia, are outstanding 
members and friends. And I saw Ms. Fletcher, and I think she 
wants to come, too. So, hopefully, she will attend.
    So, I look forward to our discussion. And now our full 
committee has an opening statement. Mr. Nadler, you are 
recognized.
    Mr. Nadler. Well, thank you very much. Thank you, Chairman 
Cohen for calling this important field hearing. Let me just say 
one thing before I start, it probably surprises most people to 
know that Manhattan--I represent the district of Manhattan, in 
Brooklyn. Manhattan, Brooklyn, and the Bronx were subject to 
Section 5 preclearance by decision of the Supreme Court in 
1982, which surprised everybody, but it was--it was justified. 
And no one objected. No one got upset by it. You know, 
everybody said, ``Okay. Fine.'' And we were covered until, 
unfortunately, Shelby County.
    The Voting Rights Act of 1965 is considered by most civil 
rights advocates the most effective civil rights statute ever 
enacted by Congress. In recent years, however, the Supreme 
Court has gutted one of its central provisions, the 
preclearance requirement. And other court decisions and 
enforcement activity have weakened the act in significant ways. 
That makes restoring the vitality of the Voting Rights Act of 
critical importance.
    In 2006, when I was ranking member of this subcommittee, we 
undertook an exhaustive process to build a record demonstrating 
unequivocally the need to reauthorize the VRA, which was then 
expired. As we moved forward, and we did reauthorize it, and 
Chairman Cohen announced the vote, for 25 years. It was 
authorized for 25 years in 2006. But, of course, we had Shelby 
County.
    As we move forward with similar efforts today, the 
distressing record of enforcement activity in Texas demands 
that reappear here in Houston to accept expert testimony on the 
current state of voting rights in America, and particularly in 
Texas.
    Although advocates readily refer to the state's long 
history of discrimination against Latino and African-American 
citizens, it is the state's recent record of voting 
enforcement, with multiple findings of intentional 
discrimination at the state level, which demands scrutiny as we 
build a record supporting Voting Rights Act reauthorization 
legislation.
    The Voting Rights Act contains two primary methods of 
enforcement. Section 2 enables the government or a private 
party to bring an action in court alleging discriminatory 
voting practices. Section 5, preclearance, requires certain 
jurisdictions with a history of discrimination to submit any 
changes to their voting laws or practices to the Department of 
Justice for prior--or to the federal district court in 
Washington, for prior approval to ensure that they are not 
discriminatory.
    Before the Voting Rights Act, states and localities passed 
voter suppression laws, secure in the knowledge that it could 
take many years before the laws could be successfully 
challenged in court, if at all. As soon as one law was 
overturned, another would be enacted, essentially setting up a 
discriminatory game of Whack-a-Mole. Preclearance is an 
essential tool in preventing this dangerous practice.
    Preclearance was effectively gutted in 2013, however, when 
the Supreme Court issued its disastrous decision in Shelby 
County v. Holder, which struck down the formula for determining 
which states and localities are subject to the preclearance 
requirement. In its absence, the game of Whack-a-Mole 
predictively has returned. Historically, Texas has led the 
nation in several categories of voting discrimination, 
including recent Section 5 violations and Section 2 challenges.
    Since the 1982 Voting Rights Act reauthorization, Texas and 
its political--the 1982 Reauthorization--Voting Rights--since 
its 1982 authorization, Texas and its political subdivisions 
have faced over 200 voting rights challenges, and in every 
decade since 1970 the state of Texas has passed one or more 
redistricting plans after the decennial census that have been 
declared either unconstitutional or in violation of the Voting 
Rights Act.
    The subject matter over which the Department of Justice 
rejected voting changes submitted under Section 5 offers an 
overview of the challenges to minority voting rights in Texas. 
Discriminatory voting changes that were halted by Section 5 
ranged from statewide voting changes, such as racially 
jerrymandered redistricting, to local changes involving 
restrictive election rules, relocating polling places to make 
them less accessible for minority residents, and methods of 
electing officials that disadvantaged minority voters.
    Historically, the Section 5 preclearance process has also 
had an important deterrent effect against voting discrimination 
in Texas. Texas had far more proposed voting changes that were 
withdrawn following a request by DOJ for additional information 
than any other jurisdiction during the 1982 to 2006 reporting 
period. These withdrawals include at least 54 incidences in 
which the state eliminated discriminatory voting changes after 
it became evident they would not be precleared by the Justice 
Department.
    Following the suspension of Section 5 preclearance 
resulting from the Shelby County decision, Texas was one of the 
first states to exploit the gap in federal voting rights 
coverage. At the time the state was facing a Section 5 
enforcement action for its 2011 redistricting plans in a D.C. 
district court, and the ruling that its voter identification 
law, SB-14, violated Section 5.
    Within mere hours of the Shelby County ruling, then Texas 
attorney general, now Governor Greg Abbott, announced that the 
state would immediately move to reinstate the photo ID law. 
With the elimination of Section 5 preclearance, both the photo 
ID and redistricting cases shifted to Section 2 cases, and have 
been the subject of ongoing litigation since that time.
    The recent experience of voting rights litigation in Texas 
is instructive for the nation, and it demonstrates the need for 
examining the existing structure of the act. After even a 
cursory review of the record, one clear fact emerges, reliance 
on Section 2 litigation alone fails to adequately protect the 
interest of minority voters.
    After nearly a decade of non-stop litigation over 
redistricting and voter identification, minority voters in 
Texas have not yet had their rights fully vindicated. At least 
one discriminatory statehouse district remains unremedied. And 
the current voter ID statute, in the words of one Fifth Circuit 
judge, still carries the taint of discrimination.
    Today's hearing gives the subcommittee an important 
opportunity to hear from witnesses directly involved in major 
voting litigation during the post-Shelby County Section 5 
transition. This hearing, however, is only the beginning of our 
inquiry into Texas VRA compliance.
    I am pleased that we have such a distinguished panel of 
witnesses, whose testimony will assist us greatly in 
understanding the continuing need for reauthorization of the 
Voting Rights Act. The experience here in Texas demonstrates 
just how deeply the loss of Section 5 preclearance cuts into 
the federal protection of the right to vote. That is why I hope 
that members on both sides of the aisle and in both chambers of 
Congress will come together, and pass legislation to restore 
the full vitality of the VRA.
    The last time the VRA was up for renewal it was 2006, and 
Steve Jabbitt, a conservative republican from Cincinnati, was 
the chairman of the Subcommittee on the Constitution, Civil 
Rights, and Civil Liberties. I was the ranking member. And he 
presided, and I was with him. Had hundreds of hours of 
hearings, compiling a 15,000-page record in order to give us 
the record that the Supreme Court told us we need to justify 
the VRA, to justify a particular Section 5.
    We reenacted it by a vote of 390 to 30, whatever it was, 
overwhelmingly. I hope that Republicans will again find the 
inner voice that led them to support this renewal back in 2006.
    We must use this opportunity to promptly craft a 
legislative solution that enables the Justice Department to 
effectively enforce the rights of minority voters within the 
contours of the Constitution. While this is not an easy 
challenge, given the gravity of the issues involved, and our 
long history of bipartisan cooperation in this endeavor, it is 
one that I believe our committee will and must meet with 
success.
    I yield back the balance of my time.
    Mr. Cohen. Thank you, Mr. Nadler. To give you an idea about 
how much the Congress has changed, when that 2006 law passed 
330-somethning to 33, it was overwhelming republican majority. 
Later, we had a voting rights reauthorization introduced, I 
guess it was about 2010, or 2011, or 2012, and you needed--to 
be a cosponsor of the bill, you needed to find a republican to 
be a cosponsor with you so it would be balanced, an equal 
number of republicans and democrats on the bill.
    I wanted to be on the bill. So, there had already been 
about five republicans on it, and I went to find a republican, 
and I have lots of republican friends. I searched all over. I 
must have asked 35 people to be a cosponsor so I could be a 
cosponsor. It would have been easier to find that airplane that 
crashed in South Asia than it was to find another republican 
for the Voting Rights Act. And that was just 6 or 7 years 
later. That is how much they have changed, and how difficult it 
has become.
    Before we get to the witnesses, I want to recognize Mr. 
Ryan, who is the county attorney here, and we thank you for 
your attendance, and you work on this issue. And I understand 
Mr. Freeman, Professor Freeman, taught Barbara Jordan. And did 
you teach Ms. Garcia as well? You did good. Thank you, sir. 
[Laughter.]
    Appreciate you being here.
    For the witnesses, we welcome you, and thank you for 
participating in today's hearing. Your written statement will 
be entered into the record in its entirety, and I ask you to 
summarize your statements in five minutes.
    Before proceeding with the testimony, I remind each witness 
that you are under oath, and if what you say is false, you can 
be subject to perjury, unless you are the attorney general of 
the United States. [Laughter.]
    Our first witness is Ernest Herrera. Mr. Herrera is a staff 
attorney for the Mexican-American Legal Defense Education Fund, 
which has an acronym, MALDEF, where he has served as public 
defender and associate district attorney in New Mexico. He has 
litigated cases involving congressional redistricting and 
voting rights. He received his JD from the University of New 
Mexico School of Law, and a BA in political science and Latin 
American studies from Columbia University. Mr. Herrera, and you 
are recognized for five minutes.

 STATEMENTS OF ERNEST HERRERA, STAFF ATTORNEY WITH THE MEXICAN 
  AMERICAN LEGAL DEFENSE AND EDUCATION FUND; GARY L. BLEDSOE, 
  PRESIDENT, TEXAS NAACP; JAYLA ALLEN, CHAIR, ROCK THE VOTE, 
   PRAIRIE VIEW A&M UNIVERSITY; MICHAEL T. MORLEY, ASSISTANT 
    PROFESSOR, FLORIDA STATE UNIVERITY COLLEGE OF LAW; MIMI 
 MARZIANI, PRESIDENT OF THE TEXAS CIVIL RIGHTS PROJECT; JERRY 
   VATTAMALA, DIRECTOR OF THE DEMOCRACY PROGRAM AT THE ASIAN 
 AMERICAN LEGAL DEFENSE AND EDUCATION FUND; JOSE GARZA, VOTING 
  RIGHTS COUNSEL, MEXICAN AMERICAN LEGISLATIVE CAUCUS IN THE 
                 TEXAS HOUSE OF REPRESENTATIVES

                  STATEMENT OF ERNEST HERRERA

    Mr. Herrera. Thank you, Mr. Chairman, and Chairman Nadler. 
Mr. Chairman and members of the subcommittee, thank you for the 
invitation to testify regarding the enforcement of the Voting 
Rights Act in Texas from the perspective of a civil rights 
attorney.
    My name is Ernest Herrera, and I am a staff attorney at 
MALDEF. Since our founding as a nonpartisan civil rights 
organization in 1968 in San Antonio, Texas, MALDEF has served 
as the leading organization that litigates voting rights cases 
on behalf of Latinos across the United States. Today, Latinos 
constitute the largest racial minority group in Texas. 
According to the most recent U.S. Census Bureau estimates, 
Latinos constitute approximately 40 percent of the Texas 
population and 29 percent of the Texas eligible voter 
population.
    As the Latino community and other racial minority 
communities have grown and expanded their share of the Texas 
electorate, the state of Texas, and some local jurisdictions 
have sought to impede Latino's access to the ballot. Over the 
years, MALDEF has been involved in landmark voting rights 
litigation in Texas and beyond, including Supreme Court 
victories in 1973, 2006, and 2018.
    However, following the U.S. Supreme Court's decision in 
Shelby County, MALDEF and Latino voters have faced greater 
obstacles to securing fair election systems. Now it is private 
litigants, individual Latino voters, and groups like MALDEF who 
must bear the significant burdens of monitoring discriminatory 
election changes, and challenging them in court.
    One example involves MALDEF's recent successful challenge 
of an unconstitutional redistricting in Pasadena, Texas, just 
down the road. Three weeks after the Shelby decision, the mayor 
of Pasadena, Johnny Isbell, announced a plan to change the 
method of electing members to the city council. The mayor chose 
to change the election system in Pasadena precisely because, as 
he declared at the time, ``DOJ can no longer tell us what to 
do.''
    In order to prevent the emergence of a Latino majority city 
council, the mayor proposed and the city's electorate approved 
converting two single-member district positions on the city 
council to at-large seats. Shifting these seats from single-
member districts to at-large voting solidified Anglo control 
over the council even as the city became majority Latino in 
population.
    Before the Shelby decision in 2013, Pasadena would have 
been required to submit this change for preclearance. And in 
past years, the U.S. Department of Justice had denied 
preclearance for similar conversions from single-member 
districts to at-large seats by cities in Texas.
    After Shelby, Pasadena was not required to secure 
preclearance, and the discriminatory change went into effect 
immediately upon enactment.
    On behalf of several Latino voters, MALDEF filed suit in 
2014 challenging Pasadena's new election system. The discovery 
process was time-consuming and expensive. Nina Perales and I 
took and defended 35 depositions. In January 2017, the federal 
court ruled that Pasadena intentionally discriminated against 
Latino voters in adopting the change and its method of 
election, and that the change also had the effect of illegally 
diluting Latino voting strength.
    The court ordered Pasadena to restore its previous method 
of election, and bailed in the city under Section 5, through 
the next redistricting cycle, until 2023. That ruling still 
stands.
    In the end, Pasadena spent $3.5 million in attorney's fees. 
Resolution of the controversy took just short of 3 years. 
Compared to the previous preclearance regime, the Pasadena case 
took a drastic toll on the city, draining its financial 
resources, and fraying relationships between community members.
    At the same time, MALDEF battled for its Latino clients in 
the Texas redistricting litigation. Although, Texas's 
congressional and state redistricting plans were initially 
blocked under Section 5 in 2012, the U.S. Supreme Court vacated 
that decision following Shelby, and we were forced into 
litigation that is still ongoing today, including a hearing 
yesterday on preclearance.
    Most recently, MALDEF took Texas to court in February of 
this year to challenge the state's attempt to purge close to 
100,000 naturalized U.S. citizens from the voter rolls. We 
represented Latino voters, who proudly took the oath of U.S. 
citizenship at naturalization ceremonies, and then just as 
proudly registered to vote.
    Texas targeted those same voters, we know from evidence in 
the record, for elimination from the rolls because they were 
born outside the United States. With other litigants, MALDEF 
secured a temporary restraining order that halted the voter 
purge. And this past Monday, we ended the case and the purge 
with a favorable settlement for the voters. As with 
redistricting, this debacle of a voter purge would never have 
gone into effect if Texas was required to preclear its changes 
in election practices.
    Thank you again for your time, Mr. Chairman.
    [The statement of Mr. Herrera follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cohen. Thank you, Mr. Herrera, you were perfect on the 
five minutes. [Laughter.]
    I have somebody out here giving me some clues of the time. 
You all don't. In Congress, we have a green light that says you 
are on, a yellow light that says you have got a minute, and a 
red light that says you are over. We don't have it, so what we 
are going to do, if you get--when you get to a minute, I am 
going to put my water down like this. [Laughter.]
    And when you get to the red spot, I am going to go like 
this. So that is going to be your clues.
    Mr. Gary Bledsoe is our next witness. He is president of 
the NAACP, the best civil rights organization that has ever 
been created, and lives today as well. The Texas State 
Conference, and has served in that role since 1992.
    He has also been a member of the NAACP's national board 
since 2003, serving with my good friend, Julian Bond, one of my 
heroes of all time. And Ben Hooks, from Memphis, another star, 
and Maxine Smith. Do you know Maxine?
    Mr. Bledsoe. Very well. Very well.
    Mr. Cohen. Yeah. She is a smart----
    Mr. Bledsoe. She is our education chair for many years.
    Mr. Cohen. My friend and a great--he has served as acting 
dean of the Texas Southern--Thurgood Marshall School of Law, 
and a member of the Board of Regents for Texas Southern 
University. Has his JD and his BA from the University of Texas, 
in Austin. And you are recognized for five minutes. And I 
appreciate your work.

                  STATEMENT OF GARY L. BLEDSOE

    Mr. Bledsoe. Thank you, Mr. Chairman, and welcome to Texas 
Southern. I want to first say that I am so proud to see that 
you have two of our alums that are there with you. We are very 
proud to say that both Congresswoman Garcia and Congressman Al 
Green are there. And I must say that I am also honored to be 
here with two persons I have had the honor to represent in 
litigation. And that is Congresswoman Jackson Lee, and my 
friend, Al Green. So, I am so thankful for that.
    First of all, let me say that, Mr. Chairman, I was really 
glad to hear you say, I think Chairman Nadler indicated this, 
that Texas has never really given full rights of citizenship to 
its African-American citizens. And obviously that is true as 
well in reference to our Latino citizens. So, we continue to 
fight that battle.
    And I must make this point here very clear, that Texas was 
not originally applied to the Voting Rights Act, but when the 
great Barbara Jordan became a member of the United States 
Congress, Texas was ultimately joined in 1975. But since the 
passage of the act in 1965, Texas has been found guilty of 
discriminating against minorities every single decade.
    What is interesting is Congresswoman Eddie Bernice Johnson 
testified in the redistricting litigation that what occurred in 
1970, what occurred in 1980, what occurred in 1990, it was 
discrimination by democrats. And since that time, it has been 
discrimination by republicans. But it doesn't matter who is in 
power, the maps that are passed do not do justification for 
African-Americans and Latinos.
    And I think if--when we talk about the need for coverage in 
Texas, I don't think we need to go any further than take a look 
at the LULAC v. Perry opinion in 2006. And we look at that 
opinion, it primarily looked at CD 23, out in Southwest Texas.
    And CD-23, they said, was discriminatorily constructed. And 
so, what did Texas do? Five years later, at the very, very, 
very first instance that Texas had to redistrict, it did the 
same thing again. And that is a finding that is still standing 
from the three-judge panel in San Antonio. So, I think that 
shows that clearly we are in need of support.
    Secondly, I want to say that in terms of the voter 
identification litigation, it is extremely important to note 
that even though the intentional discrimination findings have 
not been upheld by the Fifth Circuit, the effects findings have 
been upheld. And what is occurring in voter identification is 
really criminal in our state. Because right here in Harris 
County we had so much bellicosity coming from public officials 
threatening to prosecute individuals wrongfully if they made a 
mistake on filing an affidavit saying that they were not able 
to obtain an identification. The compromise that we came up 
with Judge Ramos in order to go forward and have the election 
2016.
    And so, with that kind of intimidation tactics that even 
the Texas attorney general has engaged in, it presents a 
chilling effect on minorities in terms of the exercise of their 
vote. And there hasn't been any real basis or any showing of 
any vote fraud. The law in Texas adequately covered that issue 
to begin with.
    I do want to say that one of the things I want to add to 
the record is one of our professors has a law review that was 
published in the Southern California Law Review, Darnell 
Wheaton, Larry Darnell Wheaton. And I think it lays out the 
ridiculous idea behind these voter ID laws that actually exist. 
But these voter ID laws, you know--and I do want to put this in 
the record.
    In 2009, there were a group of us that met in Austin over 
many, many months. MALDEF was part of the meeting group, and 
was led by two individuals, Todd Smith, who was a republican, 
and Rafael Anchia, with the democrat. And we came up with a 
reasonable voter identification law that wouldn't have the 
disparate impact that could address this alleged integrity 
issue that is out there, but that would be fair to voters. And 
that was rejected.
    I explain that a lot more in my written testimony, but 
because of time I won't go into it too much. But let me say 
that one of the things that these laws should always have, they 
should have--the votes should be counted, and it should--the 
burden should be on the government to disprove the person.
    Because when you have provisional votes, those are just 
like--they are not worth anything. Eighty-five, ninety percent 
of provisional votes are never counted. So, you give somebody 
some feeling that their vote is going to be counted when you 
give them a provisional ballot, but they don't have the time 
and the opportunity to go and to make a difference.
    We were also concerned by actions for state officials. Many 
laws have been passed to make it more difficult to get 
identifications in Texas. More impediments were put on 
individuals to get driver's licenses renewed. The laws were 
changed so that the individuals who prevailed in a county 
allowed that party to designate who would be the election 
officials at the precinct level.
    And we find all kinds of intimidation and discrimination 
that are occurring in the precinct level, many right here in 
Harris County. And we see where election judges don't enforce 
the law.
    We had one instance of an individual who was----
    Mr. Cohen. By the election judge, you mean the 
administrator or a judge, or whatever----
    Mr. Bledsoe. Well, in each precinct there is someone who 
runs the precinct, and that is----
    Mr. Cohen. And that is called a judge?
    Mr. Bledsoe. And that is called a judge. Right. And that 
individual has the power of appointing clerks and making 
decisions. And you find people who are hostile to people in a 
community going into those communities and actually taking 
over, and wreaking all kinds of havoc within those communities. 
And so that has created a real problem at the precinct level 
for people being able to vote.
    We got involved in reference to the Coba Commission, 
because the Coba Commission was a real problem, and so with the 
Coba--I see you holding the gavel up, Mr. Chairman. [Laughter.]
    So, I am ready to end here. But let me just say that since 
Shelby County there have been innumerable instances of all 
kinds of intimidation and voter suppression that have occurred 
throughout the state. So many different kinds. And Pasadena is 
not alone. We also had the same thing happening in Odessa and 
other places, but I think everyone knows without a Section 5, 
minority voters are in jeopardy in Texas.
    Thank you.
    [The statement of Mr. Bledsoe follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cohen. Thank you, sir. Just like Congresswoman Jackson 
Lee sometimes has a voice that reminds me of Barbara Jordan, 
yours has inflections on occasion that remind me of Julian 
Bond, and I had no way to cut you off. [Laughter.]
    Mr. Bledsoe. Well, he is my mentor, so--he was.
    Mr. Cohen. Ms. Jayla Allen is chair of Rock the Vote, and 
is a student at Prairie View A&M. She is a plaintiff in a 
lawsuit against Waller County, Texas, alleging that it provided 
less favorable treatment in terms of voting opportunities for 
students at Prairie View when compared to other voters in 
Waller County, thereby discriminating against African-American 
and young voters.
    Ms. Allen, thank you for your advocacy, and you are 
recognized for five minutes.

                    STATEMENT OF JAYLA ALLEN

    Ms. Allen. Thank you. Good morning, Chairman Cohen, 
Chairman Nadler, and members of the subcommittee. My name is 
Jayla Allen, and I am a proud undergraduate student at Prairie 
View A&M University, a historically black university in Prairie 
View, Texas, not far from where we are today.
    Thank you for the opportunity to testify before the 
committee on the importance of voting--on the Voting Rights Act 
in my home state of Texas.
    I am here today as a young person, a student, a voter, and 
a passionate advocate of voting rights. I am chair of Rock the 
Vote, and a member of IGNITE, an organization that seeks to 
increase woman's involvement in politics on our campus. I am 
also one of the five plaintiffs who are currently suing the 
county where Prairie View is located in Waller County for its 
anti-democratic attempts to restrict the voting rights of 
Prairie View A&M University students.
    As an undergraduate student, an aspiring civil rights 
lawyer, and a black woman, the Right to Vote was of profound 
personal importance to me. Along with many of my classmates I 
strive to engage--encourage other students to become engaged on 
our campus and in local and state affairs to participate in 
candidate forums, and most important of all, to exercise their 
fundamental rights to vote, a right that our ancestors and many 
of our grandparents were long denied.
    I believe in voting. And as a student leader, I assist and 
encourage other students to vote, because I know that voting is 
an expression of our power and our ability to elect 
representatives who will make policies that will transform our 
lives and the communities for the better.
    Members of the committee, if you have yet to visit Prairie 
View A&M University, I sincerely encourage you to do so. My 
classmates and I are engaged in democracy, excellent, and 
encourage you--excellent academics, and are aware of our 
history, where we--what we expect from our country, and what 
has been promised to us. We will inspire you and challenge you, 
and we understand the value of our votes.
    While I urge other young people to register to vote and 
become engaged with the democratic process, there are pervasive 
systems in place that make it difficult, if not impossible, for 
far too many of us to do so. This particular history of Prairie 
View A&M University is located in a predominantly black city of 
Prairie View, and its relationship with Waller County is 
largely one of the ever evolving, but still yet attempts to 
suppress the vote of predominantly young black communities in a 
county where the overall population, and most of our elected 
officials are older and white.
    Most recently, just before the early voting period begun in 
October 2018, it became clear to my classmates and I that our 
university had not been provided nearly enough voting hours. We 
are a student body of more than 8,000 people. Many of us have 
incredibly busy schedules and do not own cars. Campus is the 
center of our lives. Because of this, many of my predecessors 
at PV fought hard for an on-campus voting location, and finally 
obtained one in 2013.
    That on-campus early voting location is a lifeline for 
students who seek to participate in our democracy. Last fall, 
when county officials refused to provide even one day of early 
voting at the location during the first week of the two weeks 
of early voting, it became clear that it was an intentional, 
orchestrated attempt to prevent black students from voting once 
again.
    With the support of the NAACP Legal Defense and Education 
Fund, and the law firm of Norton Fulbright Rose, my classmates 
and I are seeking remedy to this injustice. As you may know, 
LDF was founded in 1940 by Thurgood Marshall, who later became 
the first black U.S. Supreme Court Justice.
    In the nearly 80 years since LDF has been a leader in the 
struggle to secure, protect, and advance voting rights for 
black voters and other people of color, beginning with Smith v. 
Allwright, Thurgood Marshall's successful Supreme Court case 
challenging the use of white-only primary elections in Texas 
back in 1944, LDF has been fighting to overcome the 
discriminatory barriers to the full, equal, and active 
participation of black voters.
    Among Texas County, Waller County stands out as its 
primarily shameful history of judicially recognized 
discrimination against black voters at Prairie View A&M 
University. When the 26th Amendment was ratified and PVAMU 
students between the ages of 18 and 21 became eligible to vote, 
county officials changed the rules so that student voters would 
require to fill out a residency questionnaire documenting that 
their own family owned property in the county.
    It wasn't until 1979 when the Supreme Court stepped in and 
the students in Waller County, in fact, students across the 
country could finally vote without the constraints of 
discriminatory residency questionnaires. Since then, Waller 
County has attempted to prevent PVAMU students from exercising 
their fundamental rights to vote by repeatedly discriminatory 
burdens and barriers to their access and their franchise.
    As the 2018 midterm revealed, Texas counties like Waller 
has not abandoned the shameful practices that have made voting 
extremely difficult and historically for Prairie View A&M 
University students. During this historic election, Waller 
County officials have failed to provide black students with or 
similar adequate voting opportunities that are provided to 
white and older residents. Thank you.
    [The statement of Ms. Allen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cohen. Thank you, Ms. Allen. And thank you for your 
efforts.
    The next witness is Mr. Michael T. Morley, assistant 
professor of law at Florida State University. He teaches and 
writes in the areas of election law, Constitution law, 
remedies, and federal courts. Received his JD from Yale in 
2003. Senior editor of the Yale Law Journal. Served on the Moot 
14. Received the Thurmond Arnold prize for best moralist in the 
Morris Tyler Moot Court of Appeals.
    Received his BA from Princeton University. He also served 
as law clerk for a U.S. Court of Appeals judge in the 11th 
District, and a special assistant in the U.S. Army's Office of 
the General Counsel.
    Mr. Morley, you are recognized for five minutes.

                 STATEMENT OF MICHAEL T. MORLEY

    Mr. Morley. Chairman Cohen, Chairman Nadler, and members of 
the committee, thank you very much for inviting me here today 
to testify concerning the Voting Rights Act. As this committee 
is well aware, the Voting Rights Act is one of the most 
important and most successful laws Congress has ever enacted.
    Within two years of its passage, a majority of voting age 
African-Americans were registered to vote in every southern 
state. Today, African-American participation in the electoral 
process has become--has risen to levels comparable to that for 
Caucasians. It is extremely rare for a law to make such 
profound progress on such a critical social problem.
    In recent years, the Supreme Court has called into question 
the constitutionality of various aspects of the Voting Rights 
Act. Opinions from some individual justices, including in cases 
arising under Section 2 of the act, voice concerns about 
applying a disparate impact standard, particularly in the 
context of voting rights.
    In NAMUDNO v. Holder, the court expressed federalism-
related concerns about requiring states and municipalities to 
obtain preclearance for changes to their voting laws under 
Section 5. And, of course, in Shelby County v. Holder, the 
Supreme Court invalidated Section 4(b) of the VRA, which 
identified the covered jurisdictions subject to Sections 5's 
preclearance requirements.
    Congress, including this committee, is considering various 
alternatives for replacing the coverage formula, and adopting a 
new one to determine the applicability of Section 5's 
preclearance requirements.
    I urge this committee to adopt a coverage formula that the 
Supreme Court will uphold under its ruling in City of Boerne v. 
Flores. Any new coverage standards should be based primarily on 
a jurisdiction's recent history of constitutional violations, 
meaning intentional racial discrimination with regard to the 
electoral process.
    Section 3 of the VRA already allows jurisdictions to be 
bailed into preclearance requirements on a case-by-case basis 
for engaging in such discrimination. A new coverage standard 
should not be based on a jurisdiction's violations of Section 2 
of the Act, if they are based exclusively on a disparate impact 
theory of liability, especially when such findings arise in the 
context of vote dilution cases.
    Because the VRA applies to----
    Mr. Nadler. Excuse me. Be based on that, could you say why 
it shouldn't be based on that.
    Mr. Morley. That is exactly what the rest of my testimony 
is about.
    Mr. Nadler. Okay. Very good.
    Mr. Morley. Because the VRA applies to elections at all 
levels of government, Congress enacted the law pursuant to its 
powers under Section 5 of the 14th Amendment and Section 2 of 
the 15th Amendment. Both of these provisions allow Congress to 
enact appropriate legislation for protecting constitutional 
rights.
    The Supreme Court has held that only intentional racial 
discrimination in voting violates the 14th and 15th Amendments. 
Facially neutral laws adopted for race-neutral purposes that 
have racially disparate impact, according to the court, do not 
violate the Constitution.
    The City of Boerne v. Flores, returning to Attorney 
Nadler's question, holds that laws enacted pursuant to 
Congress's power under Section 5 of the 14th Amendment must be 
congruent and proportional to preventing actual violations of 
constitutional rights. This is much narrower than the standard 
the Supreme Court previously used during the civil rights era 
in upholding the VRA's constitutionality.
    To maximize the chances a new coverage formula will survive 
review under Boerne. It should be crafted to target 
jurisdictions that have engaged in actual constitutional 
violations, meaning intentional racial discrimination 
concerning voting rights. Going beyond that, and imposing 
coverage on jurisdictions that violate Section 2, only under a 
disparate impact theory, would impose preclearance requirements 
on jurisdictions that haven't actually violated anyone's 
constitutional rights.
    The Supreme Court has struck down many laws for exceeding 
Congress's Section 5 powers, including provisions of the 
Violence Against Women Act, the Americans with Disabilities 
Act, the Age Discrimination and Employment Act, the Family 
Medical Leave Act on the grounds they were overbroad, sweeping 
in too much state conduct that didn't actually violate the 
Constitution.
    This committee has an opportunity to prevent the same thing 
from happening to the VRA. Put another way, Section 2 of the 
VRA's prohibition on election laws with disparate impact is a 
prophylactic protection. It prevents states and localities from 
adopting certain constitutionally valid laws in order to 
provide an extra layer of protection for the underlying 
constitutional rights.
    Section 5 preclearance requirements are also another 
prophylactic protection. They require the Department of Justice 
or federal court to review changes in coverage jurisdictions, 
election rules, and procedures to ensure they don't have a 
discriminatory purpose, or diminish people's ability to elect 
preferred candidates based on race.
    In McCutcheon----
    Mr. Cohen. Quickly.
    Mr. Morley. In McCutcheon v. FEC, the Supreme Court 
cautioned about adopting prophylactics upon prophylactics. That 
was a First-Amendment case. Similar reasoning could apply with 
regard to federalism.
    In conclusion, in light of Boerne v. Flores and its 
progeny, if Congress adopts a replacement formula for 
triggering Section 5 preclearance, it should be tailored to 
jurisdictions that have engaged in intentional racial 
discrimination and not those found to violate Section 2's 
prophylactic restrictions on laws with disparate impacts.
    Thank you very much.
    [The statement of Mr. Morley follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cohen. Thank you, sir. Ms. Mimi Marziani----
    Ms. Marziani. That is correct.
    Mr. Cohen [continuing]. Is the president of the Texas Civil 
Rights Project, previously directed the voting rights program 
for multiple political campaigns, and committees, also 
overseeing compliance with election law. Served as council for 
the Democracy Program of the Brennan Center for Justice at NYU 
School of Law, where she litigated election law cases in 
federal courts across the country, including before the United 
States Supreme Court. In that role, she worked to promote 
voting rights.
    She received her JD Cum Laude from NYU School of Law, and 
her BA--dynamite, dynamite----
    Ms. Marziani. Vandy. I know.
    Mr. Cohen [continuing]. When Vandy starts to fight, down 
the field, with blood to yield for Vanderbilt University. My 
alma mater.
    Ms. Marziani, you are recognized for five minutes.

                   STATEMENT OF MIMI MARZIANI

    Ms. Marziani. Thank you. It is a great honor to be here 
this morning and testify before the subcommittee. As noted, I 
draw my testimony from my experience as president of the Texas 
Civil Rights Project and appear on behalf of that organization 
today.
    I also bring my experience as chairwoman of the Texas State 
Advisory Committee to the U.S. Commission on Civil Rights, so I 
appreciate you talking about our report. And as a professor of 
election law and policy at UT, I have a lot of thoughts about 
what you just said. And I also bring my decades-long career in 
voting rights and election reform.
    So, in Texas, since Shelby County, the voting rights of 
people of color and language minorities have suffered since the 
preclearance provisions were rendered inoperable. And we have 
heard a little bit about the court findings and the photo ID 
cases and the redistricting cases that have concluded as much, 
based on voluminous records.
    So today I wanted to highlight a couple of newer laws and 
policies by the state that create additional barriers to 
voting, and are almost certainly disproportionately born by 
communities of color.
    First, I am going to talk about a 2019 policy targeting 
naturalized citizens to be purged from the voter registration 
rolls. This is a litigation that TCRP, and MALDEF, and others 
work together to happily resolve. Second, I want to talk about 
a 2017 law eliminating straight ticket voting, which is more 
commonly used by voters of color. And third, I want to talk 
about a 2017 state law that creates a new class of election 
crimes that will expand the power and discretion of the Texas 
attorney general, and increase the already high legal risk for 
Texans engaged in voter registration drives, again, which are 
disproportionately used by communities of color.
    In my written testimony I actually said that Texas had the 
worst laws around voter registration drives. Unfortunately, we 
may have just ceded that to Tennessee. Crazy times.
    So, without Section 5, all of these laws in Texas have been 
enacted despite their retrogressive effects. So, indeed, a 
federal court has now ruled that the state's efforts to target 
almost 100,000 voters in an elicit voter purge use, and I'm 
quoting, ``The power of the government to intimidate perfectly 
legal naturalized American.''
    In Texas, nine in ten naturalized citizens are people of 
color. Of course, large majorities are also language 
minorities. But the state proceeded with a sloppy ham-handed, 
that's the court's word, it is not mine, ham-handed purge 
effort despite this obviously disparate impact. At worst, the 
disparate impact, indeed, was a feature of this program, and 
not just a bug.
    In 2017, state lawmakers passed a law to eliminate 
straight-ticket voting apparently with the hopes that voters in 
urban areas would skip down ballot races. We have done a 
preliminary analysis of voting data in San Antonio which shows 
that voters of color use straight-ticket more than Anglo 
voters, and that is regardless of party preference.
    It is also well known, and I see Representative Green 
nodding, that in Harris County here, where we have the largest 
non-white population in the entire state, there are 
particularly long ballots because of the number of judicial 
seats that are at play every election cycle.
    So not only does removing straight-ticket voting have a 
retrogressive effect, but it also guarantees that we will have 
longer lines in the largest communities of color in Houston in 
the next election. And this law is set to go into effect in 
2020.
    Finally, and despite whatever information you have 
nationally, in Texas there is no doubt that Texas's voter rolls 
are much older and whiter than the population at large, and, 
indeed, than the citizen voting age population--voting age 
population. And one reason for this is because Texas 
criminalizes voter registration drives, even though black and 
Latino voters are twice as likely to use voter registration 
drives to get registered.
    Since just before the Shelby County decision, the state has 
continued to ratchet up rules to make the process of organizing 
drives complicated, confusing, and wrought with legal 
liability. And then in 2017, the state created a new class of 
felony crimes to penalize simple mistakes made by organizers 
and volunteers when they were trying to register their 
neighbors to vote.
    The predictable results of this law will be to further 
decrease voter registration drives and penalize communities of 
color. Without preclearance the full impact of these laws is 
actually not known right now. The information rests with 
government actors. But I know enough to be confident that these 
measures would have been subjected to heightened scrutiny by 
any U.S. attorney general serious about enforcing the Voting 
Rights Act.
    Thank you again for having me this morning, and I'm, of 
course, happy to answer any questions you all might have.
    [The statement of Ms. Marziani follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cohen. Thank you so much. You made Vanderbilt proud.
    Ms. Marziani. Ah. Thank you. [Laughter.]
    Mr. Cohen. Mr. Jerry Vattamala is director of Democracy 
Program at Asian-American Legal Defense and Education Fund. He 
served as the lead attorney in Favors vs. Cuomo, a federal 
redistricting case in New York, resulting in more Asian 
majority and influence districts at all legislative levels.
    He also litigates cases concerning violations of Sections 
203 and 208 of the Voting Rights Act, regularly meets with the 
board of elections across the country to ensure full compliance 
with federal and local language assistance provisions.
    He received his JD from Hofstra, and his BS in computer 
engineering--computer engineering from Binghamton University. 
You will be recognized for five minutes. Thank you.

                STATEMENT OF JERRY G. VATTAMALA

    Mr. Vattamala. Thank you, Chairman. Thank you, members of 
the committee for allowing me to testify this morning, and put 
forth the Asian-American perspective, a perspective that is 
often ignored or looked over.
    I am the director of the Democracy Program at the Asian-
American Legal Defense and Education Fund, AALDEF. We are 
headquartered in New York. We are a national organization. Our 
mission is to protect the civil rights of Asian-Americans 
through litigation, advocacy, community organizing, and 
education.
    We conduct an Asian-American exit poll. It is a national 
exit poll. We surveyed over 8,000 voters in the last mid-term 
election, and we were in numerous poll sites in Texas, 
including in Houston, Dallas, and Austin. The focus of our work 
really revolves around language assistance, specifically the 
language assistance provisions of the Voting Rights Act's 
Section 203 and Section 208. And we tend to be involved in 
cases that are targeting naturalized citizens, because 
oftentimes we, along with the Latinx community, are the largest 
percentage of the naturalized citizen community in a state.
    We were co-council with MALDEF, representing OCA Greater 
Houston, and the Asian-American community in this recent voter 
purge case that settled on Monday. One of the reasons that we 
were involved again is the targeting of naturalized citizens 
here in Texas. Almost 52 percent of naturalized citizens in 
Texas are Latinx, about 29 percent are Asian-American, only 
11.6 percent are non-Latino white, right, so we saw what the 
impact of this voter purge would have on the Latinx and Asian-
American communities.
    I also wanted to direct you to footnote 21 in my testimony 
that was submitted. This is a document that MALDEF put 
together, it is on their website, of the admissions by Texas 
officials that it knew that U.S. citizens were on its purge 
list. Not 1, not 2, but at least 25,000. Likely more than that. 
So, it shows the impact that this is going to have, and they 
knew that they were targeting citizens. We were pleased with 
the result to settle that case.
    We also, as I mentioned, talk about we are involved with 
cases that involve Section 203 and Section 208. Asian-Americans 
traditionally and currently have to rely on Section 208 to 
receive language assistance. One thing that we have noticed 
from our Asian-American exit poll and poll matching program, 
just about a third of all Asian-American voters that we survey 
are limited English proficient, meaning that they read or 
understand English less than very well. And that means they 
oftentimes will need some type of language assistance in order 
to vote.
    The threshold to be covered under Section 203, which once 
you are covered, you will have translated materials, 
interpreters, is pretty high, and Asian-Americans oftentimes 
cannot meet those thresholds. So, in Texas only two counties 
are covered under Section 203 for Asian language assistance, 
Harris County, for Chinese and Vietnamese, and Tarrant County, 
for Vietnamese.
    Back in 2015, we filed litigation against the state of 
Texas, OCAV Texas, for Texas's violation of Section 208 of the 
Voting Rights Act. Now there is not too much litigation around 
Section 208, because all it simply allows you to do is be 
assisted by a person of your choice inside the voting booth, if 
you need that assistance.
    If you cannot see the ballot, if you cannot read the 
ballot, or if you cannot mark the ballot, you are allowed under 
the Voting Rights Act to be assisted by any person of your 
choice inside the voting booth. Oftentimes, almost always, 
Asian-Americans are assisted by their minor children.
    The state of Texas had a law that required all interpreters 
to be a registered voter in the county in which they were 
providing their service, clearly, in conflict of Section 208. 
We had to sue and litigate this case. We won at the district 
court level and won at the Fifth Circuit Court of Appeals, and 
received attorney's fees in that case. Just another example of 
something that is very easy to comply with, but Texas refused 
to comply with it, and we had to litigate to obtain the rights 
that are available to voters under the Voting Rights Act.
    ALDEF has limited resources. We litigate cases around the 
country where we think Asian-American voters are being 
targeted, or there is an impact, disproportional impact on 
them. We will continue to play the Whack-a-Mole game, and go 
all over the country, including Texas. You know, as I had 
mentioned, we are a national organization. We are headquartered 
in New York. We are coming down to Texas too often, right? And 
we will work with MALDEF, the Texas Civil Rights Project, LDF, 
all the other groups here to try and keep playing this game of 
Whack-a-Mole.
    We are looking to DOJ for assistance. It is not coming, and 
I don't think it is coming under this Administration. So, we 
need Section 5 to prevent a lot of these things that could have 
been preventable from happening.
    So, I thank you for allowing me to testify. I look forward 
to answering your questions. Thank you.
    [The statement of Mr. Vattamala follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cohen. Thank you, sir. Mr. Jose Garcia is a member of 
the law firm of Garza--Garza--excuse me--Garza Golando Moran. 
He represents government entities in federal litigation, 
including 1st-Amendment and 14th-Amendment issues, 
redistricting federal voting rights, and civil rights. He's 
argued twice before U.S. Supreme Court, taught voting rights 
seminars as an adjunct professor at two law schools, received 
his law degree from St. Mary's University, we welcome you, and 
you are recognized for five minutes.

                    STATEMENT OF JOSE GARZA

    Mr. Garza. Thank you, Chairman Cohen.
    Mr. Cohen. You are welcome, Mr. Garza.
    Mr. Garza. Chairman Nadler, members of the committee, I am 
honored to have been asked to come and testify before this 
committee. It is an honor also to be on the campus of Texas 
Southern, and to see so many young attorneys on our table as a 
veteran of the civil rights fight. It is good to see that there 
are young lawyers coming in behind us to take up the mantel on 
these very important issues.
    My testimony today, I would like to emphasize a couple of 
things that I think merge together the importance of the 
Section 5 of the Voting Rights Act, and what happens when it 
gets taken away from us.
    In the voter ID case, for example, that has been mentioned 
numerous times in the testimony and in the opening statements, 
we had a situation where Section 5 worked. The state of Texas 
adopted the voter ID law in 2011, and instead of seeking 
justice of department preclearance, filed a lawsuit in 
Washington, D.C. to seek preclearance. It failed. It was unable 
to enforce the provisions of the voter ID law because of 
Section 5.
    In 2013, when the Supreme Court announced Shelby, as was 
mentioned earlier, Governor Abbott immediately announced that 
it would be enforcing the provisions of the voter ID law.
    Now we have talked in general terms about the importance of 
enforcing these provisions and of blocking discriminatory 
election laws. In my capacity as one of the lawyers in the 
Section 2 portion of the lawsuit against the voter ID case, I 
came in contact with, and we presented evidence to the court of 
real-life impact of this law.
    One of my clients, an elderly, extremely poor resident of 
South Texas, of Sebastian, Texas, Mr. Margarito Lara, testified 
in that court about the honor, and the pride, and the joy that 
he had from walking to his house. He didn't have an automobile, 
didn't have the IDs that Texas required, but he had a voter 
registration card.
    And he would walk to the polling place, and the polling 
place workers knew Margarito Lara, and they welcomed him to the 
polling place. And they said, you know, they had coffee with 
him. They conversed with him. This was one of the pleasures of 
being a United States citizen, is going and casting his vote in 
every election in his adult life.
    And in 2013, when Governor Abbott decided to enforce the 
provision, there was an election that year. And that was the 
first election in the life of Margarito Lara that he ever 
missed. We tried that case in 2014, and in October of 2013, 
Judge Ramos, from Corpus Christi ruled that the law was illegal 
under Section 2 of the Voting Rights Act, and unconstitutional 
under the 14th Amendment.
    The state of Texas sought a stay from the fifth circuit of 
that order, and it was granted. And in November of 2014, 
Margarito Lara missed his second election in his life. In his 
life. That was the second election that he missed.
    There was a third election in 2015, before we finally got 
not just the Fifth Circuit, but the court of the Fifth Circuit 
to rule that the voter ID law was illegal. Margarito Lara 
passed away in 2015. The last three elections of his life he 
was unable to vote because of the voter ID law in Texas. And 
because it took that long to litigate a Section 2 case against 
the voter ID law.
    Section 5 has real impact----
    Mr. Nadler. Could you tell us why he couldn't get a voter 
ID?
    Mr. Garza. So, Margarito Lara was an elderly Mexican-
American in a rural community of South Texas, Sebastian, as I 
mentioned. He didn't have a birth certificate. He testified in 
the--at court that he couldn't afford to go get--to pay for 
what was required in order for him to get a delayed birth 
certificate so that he could take that and secure the voter ID 
law that the state of Texas required.
    One of the things that was really moving about his 
testimony is that he was embarrassed to tell the court that it 
was something that he could not afford, that his wife literally 
lived month to month off the subsistence that they secured.
    So, let me close with this. Frederick Douglass once said 
that ``Power gives nothing without demand.'' The Voting Rights 
Act, Section 5, demands that states and local jurisdictions not 
discriminate. We need that coverage back.
    Thank you.
    [The statement of Mr. Garza follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cohen. Thank you, Mr. Garza, and thank you to all of 
our witnesses. We will now go into a five-minute rule for 
questions from our panelists. Normally, I recognize myself for 
five minutes. That is the power of being chairman. But I am not 
going to do that, because we are here in Texas, and I am first 
going to recognize your alumnus, or alumna, Ms. Garcia, for 
questions.
    Ms. Garcia. Thank you.
    Mr. Cohen. Valuable member of our committee. Thank you for 
sending us. Ms. Garcia.
    Ms. Garcia. Thank you, Mr. Chairman, and to Chairman 
Nadler, thank you for working on getting this field hearing 
here.
    Obviously, you know, Texas likes to brag about a lot of 
things, but in this area, it is just almost shame on us for 
always being in the leader of the pack, if you will, on the 
amount of complaints that go to the civil rights division.
    I know that when I testified before the Senate Judiciary 
Committee on the extension of the Voting Rights Act, I knew why 
I was chosen, because I was there representing a state with so 
many problems. I knew it wasn't my charm and good personality. 
[Laughter.]
    Ms. Garcia. It was about----
    Mr. Nadler. It could have been.
    Ms. Garcia. It could have been, but it is doubtful. And 
nothing new has happened since then. In fact, I think it is 
even getting worse. So for me, the most troubling part is that, 
as it has evolved, as you said Dean Bledsoe, it, you know, we 
started out with the Civil Rights Act, and we started out with 
targeting of African-Americans to keeping them from the ballot, 
you know. Nobody wants to be first on anything. Nobody wants to 
be the leader, but it happened, and then it has evolved now to 
Latinos, and now we are moving to naturalized citizens. We are 
moving to Asians.
    I mean this is not a competition. This is about making sure 
we have access to the ballot. And having experienced some of 
this myself, I was kind of reflecting on a purging letter that 
I got telling me that I may not be eligible to vote, because 
they had gotten driver's license records and voter records, and 
it didn't match.
    And I see my friend, Gerry Birnberg down there, you 
remember all those letters we got, Gerry. So, I have gotten one 
of those letters. So, we may have settled the issue on the 
purging letters that you are talking about, but they can still 
do those kinds of letters.
    I remember going to vote in the runoff for mayor, for Mayor 
Turner, was ready to go vote for him. They were not going to 
let me vote because they insisted that my name was not on the 
voter rolls. And I looked at them, and I said, ``Get real. I am 
a state senator, you know. You have to be eligible to vote to 
run for office.'' And they were just--but for me staying in 
there, and fighting them, and yelling--almost yelling and 
screaming did I finally get to vote provisionally. 
Provisionally. And then finally things got settled because they 
discovered they had made a mistake. Of course, I accused them 
of having double books, and a number of other things, but these 
things happen.
    When I went to vote for myself in the primary for Congress, 
there was another scheme that we haven't talked about, and that 
is when they consolidate precincts. And they consolidate more 
in the precincts of people of color, and they don't tell you 
that they have moved them. And then when I got there about 
9:00, there was a line a mile long, and I thought, ``This is 
great, all these folks are here to vote for me.'' But they 
weren't. [Laughter.]
    They were in line because they had not started at 7:00 
because the machines were down. And that the--they were having 
a hard time getting enough technicians to go to all the problem 
spots. Think of the number of voters who gave up.
    So, all things are very real. And my question to all of 
you, all of you can, very quickly, because I am running out of 
time, you know, what is the one thing that you would want us to 
do in Congress to just kind of get a handle on all of this, and 
just very quickly, we will start with you, Mr. Herrera.
    Mr. Herrera. Thank you, Representative Garcia. Of course, 
it is from your district that we have seen so many problems, 
and the ones----
    Ms. Garcia. I know.
    Mr. Herrera [continuing]. You have mentioned, and in 
Pasadena. And as one of--a local councilman in Pasadena said, a 
Latino councilman, who had served in the military, wanted to 
fight for his community, said in the lawsuit to me, ``This 
fight is one of, we feel in the Latino community, of moving 
goalposts. Every time we get closer to full franchise, they 
move the goalposts farther back.
    But to answer your question, Representative, I think that 
in MALDEF we are for a reauthorization, preclearance that pulls 
in jurisdictions with a recent historical mechanism. The bad 
actors that we know, who have done things, Tennessee and Texas, 
in the last decade or two, and also something that where 
jurisdictions have committed known practices. So, we call that 
our belt and suspenders approach, covering everyone that--
covering all the areas where there may be these violations. So, 
I think that is part of it.
    But I also think there--there has to be something done in a 
much broader sense, perhaps, to address these registration 
issues, which seem to be happening in Texas, but also in other 
parts of the country.
    Ms. Garcia. Okay. Gary.
    Mr. Bledsoe. I think that is a great question, and what I 
would say would be we need Section 5. And when I look at Shelby 
County, and try to understand their decision--it is such a bad 
decision. When the Supreme Court says there is no foundation 
for Section 4, when there is 18,000 pages of testimony, expert 
reports that is in evidence.
    So, I think that since we look at the Supreme Court, that 
has now gotten to be more conservative than it was in 2013, I 
think we need to have a real solid database record. And so to 
the extent that this committee or others can have taskforces, 
or identify individuals who can help collect data and 
information to show, I think just hearing today, you just open 
up the newspaper, and you'll see everyday something going on, 
whether it is Senate Bill 9, over at the legislature right now, 
there are things that continue to happen every day, but they 
need to be pooled together, so that that will give you all--
empower you to get something passed at your level, and maybe 
provide for bipartisan support.
    Ms. Garcia. Thank you. Jayla, anything you would want to 
add?
    Ms. Allen. Yes. Thank you, Representative Garcia. Restoring 
the Voting Rights Act, I believe, is something that needs to be 
done on a greater level. But also, speaking from a student 
leader, and someone who is just 20 years old, I believe that to 
address the problems that there are with voting and the voter 
suppression that is going on, I speak for the students at 
Prairie View A&M University, but I speak for students, and 
minorities, and women everywhere, just like the students who 
are in this very room.
    So when we have problems with voting, it is not only at a 
level of--at your level, but also discouraging students at 18--
between the ages of 18 and 24. If they don't start voting at 
those ages, it is almost very difficult for them to form that 
habit, and to become civically engaged later on in their years.
    Thank you.
    Ms. Garcia. Thank you. Professor, anything you want to add?
    Mr. Morley. I think funding is a critical piece of the 
picture. I think that if Congress is able to make available 
funds to local jurisdictions that might face declining tax 
bases, they will not have to make some of the tradeoffs that we 
have been hearing about, about combining--about combining 
polling places, eliminating polling places.
    If we make funding available to local jurisdictions to have 
adequate staff, to have modern voting machines, and either for 
other aspects of the process, like free postage for absentee 
ballots, as well as even if you need a birth certificate to get 
a voter ID, to me, it is unconscionable that you should have to 
pay for that, that having--that if you are going to have voter 
identification requirements, being able to obtain a free birth 
certificate in order to do that seems to be an important piece 
of the picture. So, making that funding available, I think, 
would be a critical supplement to the VRA.
    Ms. Marziani. Thank you. I feel like I unfortunately had 
too many presentations lately about why our democracy is in 
trouble. So, I could go on and on, but I will say we absolutely 
need preclearance restored, so that we are not backsliding.
    I also believe that this is a moment where we need 
affirmative expansive solutions, such as those contained in 
H.R. 1. I think that is an extraordinarily important piece of 
legislation that could, indeed, match the Voting Rights Act of 
1965, if we could get that passed.
    So, I would really encourage folks to keep a close eye on 
that bill.
    Ms. Garcia. Thank you.
    Mr. Vattamala. I would say, you know, echoing again, yes, 
obviously, preclearance, we need the coverage back. As Chairman 
Nadler mentioned, New York, certain counties recovered. We 
actually had multiple instances where we successfully used 
Section 5 to protect Asian-American voters in New York City.
    But one thing that we are thinking about is federal 
observers from the DOJ, having them stationed in poll sites, 
and getting more cooperation with them. Whatever you could do 
on that front I think would be appreciated. We have seen 
decline in numbers of discriminatory incidents when we have DOJ 
observers at poll sites where we know there is going to be a 
large number of Asian-American or Latinx community voters.
    Ms. Garcia. Mr. Garza.
    Mr. Garza. So, I think that the problems that we have faced 
in litigating under the Voting Rights Act are so many that 
there can't be just one thing that this committee or that the 
Congress does to fix the Voting Rights Act.
    One of the things that I think is really important is to 
revisit the standards--in addition to Section 5 is revisit the 
standards under Section 2. The interpretations that have come 
out of the Fifth Circuit, and in many instances, unfortunately, 
buttressed in the Supreme Court, make litigating under Section 
2 as difficult as it was when the amendment to Section 2 was 
enacted in response to Bolden.
    We are back at that stage, where it is almost impossible, 
not because there isn't discrimination, but because the 
standards that have been established by jurisprudence, by our 
courts, make it extremely difficult, extremely expensive, and 
extremely long to litigate a case under the Voting Rights Act.
    Ms. Garcia. Thank you. Thank you, Mr. Chairman.
    Mr. Cohen. Thank you, Ms. Garcia. I now recognize the next 
member on our panel on the committee, and that is Ms. Sheila 
Jackson Lee, who needs no introduction.
    Ms. Jackson Lee. Let me thank the chairman very much, and 
what a bittersweet moment, Mr. Birnberg, if I could ask for a 
moment, so I can get your name on the record. But what a 
bittersweet moment, but an emotional moment for me to be here 
at the historic Texas Southern University, founded in the ashes 
of segregation, how pleased I am to be here with these powerful 
students representing the progeny and the historic leaders of 
all that we have invested, the blood, the sweat, and tears.
    So, I will take a moment to be able to thank all the 
witnesses, and thank both Chairman Cohen and Nadler, and my 
colleagues that have joined me. I am very glad to have been 
part of creating the opportunity for this field hearing here in 
the field hearing here in the 18th Congressional District. And 
I want to acknowledge Vince Ryan, who has been so effective in 
dealing with injustices in our county; President James Douglas, 
of the NAACP; the provost, and head of the Mickey Lehman 
Center, we thank you; Dean Bledsoe, in particular, for Thurgood 
Marshall School of Law; Gerry Birnberg, who has been 
outstanding in his work; Rhonda Skillern-Jones, Doris Ellis, 
other leaders in law enforcement; and particularly Aaron 
Dallas, Marcus Nash, and Brianna Spaulding, who has helped us.
    And Ms. Greenley, who is here, who has been a fighter for 
the justice of women, who has been blinded by a domestic 
violence act, and knows that elections count, and voting count. 
And we are just so grateful for your presence here, and hope to 
see you later on this evening. I wanted to make mention of you 
as well. So, I will quickly thank you so very much.
    And then, of course, Thomas Freeman, a professor, won the 
highest award from the Congressional Black Caucus. Our oldest 
professor, teacher, Barbara Jordan, who we know what her work 
resulted in. And I just wanted you to be in this historic 
voting rights hearing.
    Let me say that it has been an honor to be on the Judiciary 
Committee and work on the reauthorization with the leaders who 
are here, to be able to work on language in this legislation, 
and to see the mighty vote that we got, and a republican 
president who signed it. We are here to make the record that 
there is need and to follow Judge Ginsburg's admonition that 
just because polio may not be in place, it does not mean you 
need to get rid of the vaccination.
    I will say to you that the legislation was named in this 
last time after Fanny Lou Hamer, Rosa Parks, Coretta Scott 
King, Cesar Chavez, and I put in Barbara C. Jordan, who put 
Texas in, William C. Velasquez, and Dr. Hector P. Garcia, 
Voting Rights Act reauthorization, and Amendment Act of 2006, 
to capture all these heroes.
    What you may not know is standing in the courtroom the day 
after the Shelby case was issued, fighting against the 
elimination of North Independent School District, an all-black 
school district and board, and it was because of the Shelby 
case and the lack of preclearance that they threw that board 
out, and closed that school district to the sadness of all of 
the people.
    So here is my question for you all, and I would appreciate 
it, Mr. Garza, you gave me pain of that gentleman who wanted to 
vote, and it happens every day, purging happens every day. Can 
I just particularly ask you the question of the pain of not 
having preclearance and being confronted with the oppression of 
not being able to vote.
    I will start with you, Ms. Allen. Mr. Garza, I would like 
to hear from you. And Mimi, I think we saw each other in South 
Texas, if I am not mistaken. What is the pain of being purged, 
being a citizen, and being purged, and also being challenged by 
an individual citizen because of a law in Texas that I don't 
like your last name? It is Islamic. It is Asian. It is 
Hispanic. It is African. And we don't like your last name, and 
I am going to challenge you, because you don't seem like you're 
an American.
    Ms. Allen, speak for all the students, and the pain, and 
indignity of the insults that you have experienced.
    Ms. Allen. Thank you, Representative Jackson Lee. The pain 
is--it is hard to put into words almost. As a student leader, a 
precinct chair, someone who is leader of Rock the--chair of the 
Rock the Vote, every day I encounter voter registration--I mean 
I put on voter registration drives, and I encounter students 
who come to me and say, ``Well, Jayla, I can't vote today, and 
I couldn't vote because my name wasn't on the ballot,'' or 
``Because they have told me that I have been--my registration 
card has been thrown out due to addresses that have been given 
to us to specifically put on there, but it is the wrong 
address.''
    So, you have students who are coming to campuses, are 
leaving home for the very first time, and are looking to vote 
for the very first time, and as soon as they get to the ballot, 
they are to register, they come across all these problems. And 
they are ultimately turned away, and denied their fundamental 
right of voting on their college campus. And if they are not 
necessarily denied, then they are denied their polling place on 
the actual campus.
    So, these students, especially like freshmen, or not even 
just freshmen, but anybody who doesn't have access to a car, 
who has to go off of campus to vote, they once again have 
been--has been hit with a roadblock of being able to vote for 
the very first time.
    So, the pain is incredible. I mean you hear students tell 
you stories about how their families haven't necessarily had 
the, not necessarily the right, but also just the push of 
voting, and being civically engaged. When they come to you, and 
they say, ``Well, I want to change that, I want to become 
civically engaged, I want to spread that to my family, and the 
children that I will have one day,'' but they go to vote, and 
they are ultimately turned away, I mean the pain isn't just 
with one student or a couple of students, it spreads across the 
campus. It spreads across the county, and ultimately, this 
country, and speak for the thousands of students, or the 
thousands of minorities who are running into these problems.
    Ms. Jackson Lee. Thank you. The preclearance impact.
    Woman in Audience. Excuse me. Is there anyone who wants to 
say anything here?
    Ms. Jackson Lee. Witnesses. She was asking----
    Mr. Cohen. We have questions from the panel, and then maybe 
later we can have some comments, if that is what you would like 
to make.
    Ms. Jackson Lee. Thank you.
    Ms. Marziani. Thank you. As I shared with you in South 
Texas when we were preparing to sue the state over the voter 
purge, I spoke with a woman, a naturalized citizen, who has 
been politically active with a close ally of the Texas Civil 
Rights Project, a group called the Workers Defense Project. And 
this woman has organized on behalf of domestic workers.
    And she very much wanted to participate in the lawsuit. She 
had been targeted by the state. She was extraordinarily upset, 
because she so values her United States citizenship. But we 
spoke, and it is just seared in my brain. It was a Sunday 
evening. I could hear both of our kids in the background. And 
she was scared to participate in the lawsuit. She was scared, 
because she had already been targeted. She was scared because 
she thought, and asked whether the government could come and 
take away her citizenship. She felt like a second-class 
citizen, because of how she had been treated.
    And ultimately, she did not participate, because it was 
just too scary for her, despite how politically active she has 
been in her community.
    Ms. Jackson Lee. Thank you.
    Mr. Garza. I think that is an excellent question.
    Ms. Jackson Lee. On the need for preclearance, if you 
would.
    Mr. Garza. Absolutely. I think that is an excellent 
question, because so many times when we view the right to vote, 
it is sort of an amorphous kind of thing, and we don't realize 
how important it is to our citizens, this vote. Margarito Lara 
is a prime example, but every one of our seven plaintiffs that 
testified and talked about how they couldn't get the voter ID.
    And they would call us after Judge Ramos issued her order 
in 2014, and they would say, ``Well, now I can vote, right?'' 
And then we had to tell them, ``No. The state secured a stay. 
You have to wait until we get this thing finally resolved.'' 
And they were just dumfounded. They couldn't understand--they 
had done everything in their life right. This is the one thing 
that they really cherished, being able to go and cast a vote.
    One of the most important things about my career as a 
voting rights lawyer is the people that I represented, the 
courage that it takes for them to fight for their right to 
vote. I had a client out of Taft, Texas. I tell the story about 
Miguel all the time. It was a Korean vet, who couldn't 
understand why things in his community were so different than 
just across the highway where the white community lived, and 
wanted a seat at the table of governance there. And would come 
to MALDEF on a pilgrimage almost every three months. ``Can you 
file a lawsuit for us? Can you represent us in this?'' And over 
and over we had told them we were too busy.
    Eventually, we did represent Miguel. We tried a case 
against the city of Taft. And unfortunately, Miguel had to have 
bone marrow transplant between the time of our preliminary 
injunction hearing and the trial on the merits, and he passed 
away on the operating table.
    And this is what he told his wife as he was going into the 
operating table. ``You call Jose, and you tell him this has got 
to go all the way until we win, whether I make it or not.'' 
That is the kind of importance that our community feels about 
the right to vote. And that is why Section 5 and anything that 
can be done to improve Section 2 and all of those provisions 
are so important.
    Ms. Vattamala. If I could just add, for Asian-Americans, 
you know, we conduct this survey poll monitoring every major 
election. There are hundreds, hundreds of Asian-American voters 
that are required to prove their citizenship, their citizenship 
at the poll site, because the exact words from the poll workers 
are, ``You do not look like an American. Prove your citizenship 
to me.'' And obviously, most people that go to the polls don't 
have their passport or birth certificate with them. So those 
voters are turned away.
    And, you know, with our OCA case that we brought regarding 
Section 208 of the Voting Rights Act, that grew out of an 
incident that happened in 2014 in Williamson County, in the 
Austin area. Malika Dass, a naturalized citizen. She was 
Indian-American, limited English proficient. She went to vote 
during early voting with her son, Sarab, and she was prevented 
from being assisted by him because he was registered to vote in 
the neighboring county where he went to school.
    We had to convince Ms. Dass, along with her son, to 
convince her to come forward to be a named plaintiff. How 
daunting it was to be So-and-So versus the State of Texas. So 
many times we have really great cases, but we can't bring the 
action because we don't have somebody willing to come forward. 
Because many times, our clients, they have to be limited 
English proficient, and oftentimes, they are a naturalized 
citizen.
    The state of Texas persisted in trying to depose her. She 
was identified with stage 4 esophageal cancer during the course 
of the case, and passed away during the course of the 
litigation. And her son was really concerned that this was for 
nothing, but we won, and, you know, it is a testament to her 
and her courage, and it was really----
    Voice  [continuing]. The case?
    Mr. Vattamala. No, because we had another organization 
plaintiff, OCA Greater Houston, thank God.
    Mr. Cohen. Thank you, Mr. Vattamala. I would like to 
recognize the chairman of the committee, Mr. Nadler.
    Mr. Nadler. Thank you very much. First, let me state that I 
appreciate all the witnesses here, and these harrowing stories.
    Mr. Garza, and anyone else, I hope you will, if you have 
suggestions as to specific amendments to Section 2, send them 
to the committee, please, because we should be looking at that.
    Professor Morley, you said that under the city of Boerne 
case, which threw out state applicability of the Religious 
Freedom Restoration Act, that the court had greatly narrowed 
the 14th--the Section 5 enforcement provision of the 14th 
Amendment, which is true. But you also said that, in effect, it 
had set a standard that you couldn't use legislation based on 
Section 5 or the 14th Amendment for disparate impact cases. You 
had to prove intentional discrimination. Is that the case, as 
you read the law?
    Mr. Morley. No, Mr. Chairman. The----
    Mr. Nadler. I misunderstood you. Good.
    Mr. Morley. What the Supreme Court said is in order for a 
federal law to be a constitutional exercise of Congress's 
Section 5 power, it has to be congruent and proportional to 
actual constitutional violations. So, it is the congruence and 
proportionality standard that is Boerne's key holding.
    Mr. Nadler. But disparate impact can be a congruence in 
proportionality requirement.
    Mr. Morley. Yes, Mr. Chairman. The Supreme Court has held 
you can have some prophylactic effect in a law passed under 
Section 5. If you look at some of the cases issued after City 
of Boerne v. Flores, however----
    Mr. Nadler. Okay.
    Mr. Morley [continuing]. In particular, the Kimel vs. 
Florida Board of Regents and Coleman vs. Maryland Court of 
Special Appeals, one of the main reasons the Supreme Court said 
the law at issue was not a valid exercise for Section 5 was 
because it targeted state conduct with a disparate impact that 
didn't amount to intentional discrimination.
    So, it is not a per se rule. It is not that the Supreme 
Court said that you can never have a law that addresses 
disparate impact under Section 5. Because the Supreme Court has 
held disparate impact doesn't violate the Constitution, 
targeting disparate impact under Section 5 would be a 
substantial factor that, at least under the Court's approach, 
weighs against the----
    Mr. Nadler. But under the Court's approach with those 
progeny of city of Boerne, we could tailor a Section 5, that 
that, with disparate impact, if we figured out--if we did 
proportional and congruent.
    Mr. Morley. That would be a factor weighing against 
proportionality and congruence.
    Mr. Nadler. That is disparate impact.
    Mr. Morley. Right.
    Mr. Nadler. So, we will have to be much more careful.
    Mr. Morley. Yes, Mr. Chairman.
    Mr. Nadler. Ms. Marziani, you shook your head before and 
said you didn't agree with Professor Morley on this point. 
Could you elaborate, please?
    Ms. Marziani. Yes. I mean I think, briefly, in the Shelby 
County case, the court was clear that it was not seeking to 
undermine congressional power in passing the Voting Rights Act 
as a whole. And, of course, the Voting Rights Act is derived 
from both the 14th Amendment, but also the 15th Amendment, of 
course. So, there is another source of power there as well.
    In my reading of Shelby County, the court was very clear 
that it was concerned about the record not being based, as you 
had noted before, on recent history, but was not casting any 
significant doubt on congressional power in this realm.
    Mr. Nadler. And the subsequent cases that Professor Morley 
cites? Are you familiar with it?
    Ms. Marziani. I mean Shelby County is more recent than the 
City of Boerne.
    Mr. Nadler. That was Shelby.
    Ms. Marziani. Yes.
    Mr. Nadler. Okay. So, you think we can deal with the--we 
can have a new Section 5 that deals with disparate impact. Do 
we have to write it more narrowly or more carefully than we 
would have had to in the past?
    Ms. Marziani. I think that it is imperative that the 
committee do what it is doing right now, and make sure that any 
coverage formula is tailored to address the current situation.
    Mr. Nadler. Well, yes, that we know. That is why we are 
holding these hearings.
    Ms. Marziani. That is right.
    Mr. Nadler. But having shown current problems, current 
discriminations, current disparate impacts, do you think we can 
write a Section 5 more as broad as we could have in the past, 
or do you think the--or it has to be more careful, given these 
recent Supreme Court decisions? Or more narrow, I should say.
    Ms. Marziani. I think it can be as broad as it was in the 
past.
    Mr. Nadler. You think it can be?
    Ms. Marziani. Yes.
    Mr. Nadler. Okay. We may have to--I am going to ask Mr. 
Garza, too. Yes.
    Mr. Garza. So, one thing I would say in response is that I 
would caution the committee and the Congress from enacting a 
coverage formula that is limited by a court finding of 
intentional discrimination. And I will give as an example----
    Mr. Nadler. Well, obviously, we don't want to do that.
    Mr. Garza. Yeah. I give as an example the voter purge that 
was--that has been talked about. There is no judicial finding 
that that was an intentional act of discrimination. But the 
record in that case shows that the state of Texas before it 
sent the letters telling people they were going to get purged 
knew that as many as 25,000 people should not be getting that 
letter, and they sent it anyway.
    Mr. Nadler. No. It is clear that lots of disparate impact 
like that, like the law eliminating straight-ticket voting, 
like a million other things, are done for discriminatory 
reasons, or have a discriminatory effect, which you cannot 
prove the reason, necessarily.
    Mr. Garza. That is right.
    Mr. Nadler. So, we clearly want to cover disparity impact. 
My question is are we more limited, or do we have to write a 
renewal in order to cover disparate impact differently than we 
would have had to a few years ago, given these recent Supreme 
Court decisions?
    Mr. Garza. So, I think there is an important part of Shelby 
County that we need to sort of remember. Shelby County did not 
undo the provisions of Section 5.
    Ms. Marziani. Right.
    Mr. Nadler. It just did six and four.
    Mr. Garza. The scope of Section 5 has not ever been ruled 
to be unconstitutional. So, the scope of the coverage of the 
Act was never----
    Mr. Nadler. So, we shouldn't change that at all. We should 
leave Section 5 as is, and re-do Section 4.
    Ms. Marziani. Yes.
    Mr. Garza. That is right. Have the coverage formula be more 
relevant to today, essentially.
    Mr. Nadler. Yeah. Does anybody disagree with that?
    Mr. Herrera. No, Chairman Nadler. May I add to----
    Mr. Nadler. Please.
    Mr. Herrera [continuing]. Garza said. And the advocates at 
this table, the attorneys at this table know better than I do 
about how difficult some of this litigation can be. But I think 
it is important to reiterate the difficulty, the higher burden 
of proving intentional discrimination in these cases, compared 
to disparate impact, in Texas--Right. In a Texas redistricting 
case, how even when there are smoking-gun e-mails about wanting 
to design a mathematical device by which you can make districts 
look like they are strong, Latino districts, but then have 
those same districts not perform because they are low turnout 
districts, even that not convincing some members of the 
judiciary. And then in the----
    Mr. Nadler. Especially a new judiciary.
    Mr. Herrera. Right. And in Pasadena, there is a specific 
piece of evidence. We did successfully--MALDEF did successfully 
get an intentional discrimination finding in that case. And one 
of the pieces of evidence there was the mayor's right-hand man 
sending--I just want to give like a practical very, if you will 
forgive me, in the weeds example.
    One piece of evidence was that among other dog whistles in 
that case, there was one piece of evidence where the right-hand 
man of the mayor, the communications director, said, ``How 
about to get this measure passed, by which we changed the 
districting system, in order to get it passed, we only send--we 
take the Hispanic names out of the mailing list for the 
advertisements.'' He said, ``I want to take out the Hispanic 
names.'' He said, ``We are only sending these mailers to white 
people in Pasadena, so that they are the ones who go vote.''
    And when we went to court, Judge Rosenthal here was shocked 
by that. And that was an important piece of evidence among many 
others. But when we went up to the Fifth Circuit, one of the 
judge's questions, she--this judge asked us on the panel, ``How 
does this show racism? That could mean anything.'' It is just 
amazing sometimes how judges can, even when you have the 
smoking gun, still call in and question this kind of evidence.
    Mr. Nadler. Well, thank you very much. My time has expired.
    Mr. Bledsoe. Can I add one thing to that, Mr. Chairman?
    Mr. Cohen. Surely.
    Mr. Bledsoe. Two things. I would ask you to take a look at 
the Supreme Court case on fair housing in Texas, where they 
allowed the disparate impact to be a basis for a violation. But 
secondly, I think that just depending on--depending upon the 
severity of the difference shown or illustrated by the 
disparate impact, you could infer intent even from such a great 
level.
    I have used that in grand jury litigation, for example, 
that where the experts say if you are two standard deviations 
away from where you ought to be, there is something 
extraordinary going on, and yeah--and some have said that that 
implies discriminatory intent.
    Mr. Nadler. But the bottom line seems to be that we should 
leave Section 5 alone. If the courts, unfortunately, want to--
its application, we can't stop them. But there is nothing about 
it. And just get a good Section 4 to delineate proper coverage.
    Mr. Bledsoe. Coverage. Absolutely
    Mr. Nadler. Everybody agree with that?
    Voice. Yes.
    Mr. Nadler. Thank you.
    Mr. Cohen. Thank you, Mr. Nadler. Mr. Green. Gentleman from 
Texas, and a great friend, and a great supporter of the 
Constitution, and an opponent of bad people. [Laughter.]
    Mr. Green. Thank you for your very kind and warm 
introduction, Mr. Chairman. You are a true patriot, and I thank 
all of the members of this Augusta panel for allowing me to 
interlope today. Mr. Nadler, thank you so much. Long-time 
friend, Ms. Jackson Lee, Ms. Garcia.
    Dear friends, we have one among us that I would like to pay 
tribute to, if I may. He holds the distinct honor of holding 
two positions. Mr. Overstreet, would you just stand for a 
second so that they can see you, please. Morris Overstreet. He 
holds two positions. He is the first African-American ever 
elected to the court of criminal appeals.
    [Applause.]
    Now you will have to retract what you just did, because he 
is also the last and only ever elected. Thank you, Mr. 
Overstreet. The last and only. Morris Overstreet.
    Mr. Chairman, I do want to just say to you, I thank you for 
coming, not only to Texas, but also to Harris County, because 
Harris County is really the belly of the beast. We heard 
someone mention Smith v. Allwright, 1944. Well, Lonnie Smith 
was a dentist right here in Harris County. It was Lonnie Smith, 
the dentist, leading citizen, who could not vote in a Texas 
democratic primary.
    Went to the Supreme Court, and the Supreme Court overturned 
lower court decision. Smith was allowed to vote. Well, they 
metamorphosed down in Fort Bend County, and had something 
called a Jaybird Association, and they had a pre-election 
primary, literally. They Jaybird Association would hold a pre-
election, and the winner would then be the nominee for the 
democratic party.
    It sent all the way to the Supreme Court. The Supreme Court 
said, ``No. Not only can you not have discrimination in the 
primary, you can't have it in a pre-primary.'' So, Texas has 
been a bad actor for a very long time. And we have to do what 
we are doing today, and I am so honored that you are doing it.
    This difference is a congressional ID. With this ID I can 
vote on the budget for this country. I can vote on issues of 
war and peace. And this is the only time I am going to say this 
word, I can also vote to impeach a president, with this ID. 
[Laughter.]
    But I cannot vote in an election in the state of Texas with 
this ID. Someone mentioned other forms of ID.
    Mr. Cohen. And I will vote with you. [Laughter.]
    Mr. Green. You did already. Other forms of ID. Well, it is 
important to note this about these other forms of ID. Texas, in 
theory, Mr. Bledsoe, you are well aware, you are my lawyer, in 
theory, they give you an ID at no cost, in theory. But you do 
have to get the birth certificate.
    I tested it. I went to the polls and tried to vote 
without--with this ID and no other. When I was turned away, I 
was told you have to have the proper ID. So, I sent to the 
state of Louisiana, Mr. Chairman, where I was born to get my 
ID. You have to pay to get that ID from Louisiana. The state of 
Texas doesn't cover that cost.
    And this was some few elections ago. To this day, I have 
not received the ID that I paid for, the birth certificate, 
which is really what we are talking about. I haven't received 
that birth certificate. To this day.
    So, it is onerous not only in that it requires you to get 
your birth certificate, but also in that there is a cost. And 
if you are a person who was not born in Texas, you don't 
benefit from what they consider a free ID.
    My questions will be these. You mentioned the long ballot. 
You have mentioned the birth certificates being free. We have 
talked about other forms of ID. In Texas, for many years, you 
could vote with something that showed proof of your residence, 
light bill, gas bill, water bill, phone bill. What is the 
significance of having an affidavit for you to sign such that 
you would be penalized criminally if you do not truthfully 
state that you are a citizen in that affidavit? Has anyone had 
any experience with affidavits as a possible means of--on a 
polling day, allowing that to suffice, and then prosecute you 
if you--if you state that you're--if you make a misstatement or 
an untruthful statement? Mr. Garza.
    Mr. Garza. So the----
    Mr. Green. Could you pull the microphone a little bit 
closer?
    Mr. Garza. Yeah. So, the remedy that was adopted in the 
voter ID law is that you can use those alternative forms of ID 
if you sign what they call a reasonable impediment affidavit. 
And much of the debate that we had with the state of Texas, in 
terms of how that affidavit was going to be drawn up was how 
much emphasis the state was going to put on the proposition 
that if you sign that affidavit, and somehow you have made a 
mistake, that you would prosecuted for perjury, and that that 
would be on the document itself.
    So, what we have now is better than what the state adopted, 
but we still have this problematic affidavit. That is what Mr. 
Lara would have to sign when he would go to the polling place 
without a driver's license, or the other four--a gun license, 
which you can use to cast a vote in Texas. And the other three 
items that you can. If he didn't have access to any of those, 
he would have to sign this reasonable, what they call a 
reasonable impediment affidavit, swearing that he couldn't get 
those five forms of documentation.
    And it is problematic for that reason, that the state of 
Texas made a lot of noise about how we would prosecute anybody 
that would lie on that affidavit. So you would think twice 
before you sign and swear to anything that you, you know, first 
of all, don't understand why you have to go through this, 
because you have voted all of your life, but now you have to 
sign this affidavit, in which you are threatened with felony 
prosecution for if you make a mistake on it.
    Mr. Green. Okay. Mr. Bledsoe, I want to ask you quickly, 
SB-9, you mentioned 9t. Is there a provision in there that 
relates to persons being in the polling place with you when you 
actually cast your ballot in the voting booth?
    Mr. Bledsoe. Well, I think that it is really an 
intimidating bill, because I think it even limits----
    Mr. Green. Is your microphone on?
    Mr. Bledsoe. The law seems to limit who can even be 
transported to be able to vote. And so you imagine the 
significance of that, if you can't transport people to vote, 
and a lot of people will not be able to go to the polling 
places. And you will have to file an affidavit for that as 
well.
    And let me say in reference to the----
    Mr. Green. Mr. Chairman was asking you----
    Mr. Nadler. You can't transport? You can't give a ride?
    Ms. Marziani. That's correct.
    Mr. Bledsoe. Right. That's correct. That's correct. It 
passed in Senate. It's in the House. It has not passed the 
House as yet. But it is pending now. I mean you are the expert 
on that one. I know you guys have probably been supporting you 
on that.
    But in reference to the other reasonable impediment 
affidavit, we have many of our NAACP branches that do not train 
individuals to--they discourage people from executing the 
affidavits, because it is very easy that you can get a hostile 
DA who will prosecute you.
    Let me give you for an example, because the question is do 
you have an impediment that prevented you from going to 
register, right, to get the ID? And so it is not whether or not 
you are who you say you are, it goes further. And let's say you 
go to a nursing home, and someone from the nursing home has 
gotten an escort, and gone up and gotten their ID. But you were 
somehow not on the bus, and didn't go get your ID. So, are you 
going to prosecute that individual? Very possible, because it 
is very--we had a big argument when they were passing the bill 
about what the coupled mental state would be, because we wanted 
it to be intentionally, rather than knowingly, because 
knowingly allows you to go after more individuals in different 
types of conduct.
    But the law that was passed was very broad, and allows you 
to go after people for what we think are innocent reasons. So, 
we are very concerned about actually sending people forward, 
especially in some communities, because Texas has been rife 
with discrimination against minority voters. And so it is a 
real possibility that people will get prosecuted.
    And when you have the attorney general of the state and the 
chief election official here in Harris County both talking 
about that, you understand that that has a clear impact.
    Mr. Green. Did you want to make a comment, Mimi?
    Ms. Marziani. I would be happy to follow-up with the 
committee, with more information about the SB-9 bill, which we 
have been monitoring closely, and hoping that it will not 
actually be passed into law.
    Mr. Green. Thank you, Mr. Chairman. I greatly appreciate 
it. I yield back.
    Mr. Cohen. With that, we will conclude our hearing, except 
for the fact that I want to recognize the county attorney, if 
he would like to say anything.
    County Attorney. I will only say that I second virtually 
everything that has been said. Here in Harris County we have 
had to face these issues, and any help we can get from Congress 
to subdue some of these efforts by certain elected and 
appointed officials is welcome. Thank you for having this 
hearing.
    Mr. Cohen. Thank you, sir. And your attendance speaks 
volumes. Yes, ma'am.
    Ms. Sanchez. Hi. I represent Texas Southern University, and 
I am the government seat for disability. And I am thinking----
    Mr. Cohen. Would you like to come up and use a microphone? 
And tell us your name, please.
    Ms. Jackson Lee. Thank you, ma'am.
    Ms. Sanchez. Yes, ma'am. My name is Valara Sanchez. And I 
represent Texas Southern University, and I was sworn as the 
government seat as a senator. And I am representing the 
disability. And I am asking you if there is any way that you 
could help the disability. That, they need.
    There is nothing. And I will say this, because I am, today, 
representing the disability, because I am a hard-of-hearing 
person. We don't have that here. You don't even have anything 
for the blind. Need that. That is why I came and asked.
    Mr. Cohen. Would anybody like to--thank you. We are 
concerned about people with disabilities. I understand it 
personally, and I think it is a priority of all of us on the 
panel. And it does not necessarily relate to the Voting Rights 
Act, but it certainly does have to do with voting. And there 
might be some areas. Ms. Garcia?
    Ms. Sanchez. Because whenever you go and vote, sometimes 
people don't understand.
    Mr. Nadler. Let me say that there are provisions in the law 
not strong enough in the Voting Rights Act and in the Help 
America Vote Act. The committee is actively engaged in 
discussions with various disability groups right now, looking 
to possible amendments to the Voting Rights Act to strengthen 
protections for people with disabilities.
    Ms. Jackson Lee. And I think we should do that.
    Mr. Nadler. Yes.
    Ms. Garcia. Mr. Chairman, Texas law does provide--you can 
ask for assistance, and you can also ask for assistance in the 
ballot materials, and the ballot be brought to the car. 
Sometimes it is hard to convince judges at the polls that are 
actually working that that is true, but people have an absolute 
right, if they have any kind of physical disability, or feeling 
ill, or just can't walk to get to the ballot box, they could 
make a request, and the ballot can be brought to them at the 
car.
    It doesn't solve the blindness issue, but they do have a 
right to have assistance much like in the case of an 
interpreter.
    Ms. Sanchez. Well, I just know that whenever people speak, 
for instance, whenever they go anywhere, and some people don't 
have the interpreters. Sometimes they are not ready for them. 
So, what do we do? We are lost. So, then you lose a voice.
    Ms. Jackson Lee. Right.
    Ms. Garcia. Right. No. You are absolutely right. And I 
still remember well the case that the attorney was talking 
about, because when I was in the Senate, I filed a bill to 
pretty much codify what the case had said. In other words, what 
the case said, make it into law, and then to be able to make 
sure that people got trained.
    And unfortunately, across the state, we are not finding 
that the counties are in compliance. So, we will continue to 
work on it on the federal level, and then down here in the 
state level to make sure it gets implemented the right way.
    Ms. Jackson Lee. So, thank you for being here.
    Ms. Sanchez. I appreciate that very, very much. So, thank 
you.
    Ms. Jackson Lee. Thank you.
    Mr. Cohen. Thank you, senator. That does conclude our 
hearing. It has been an outstanding hearing, thanks to you and 
the panel. I want to thank you for your participation and 
helping to re-codify this law.
    [Applause.]
    Mr. Cohen. So, thank you for the witnesses, and I want to--
before I recognize Congresswoman Lee, without objection, all 
members have five legislative days to submit additional written 
questions for the witnesses, and material, additional material 
for the record.
    Congresswoman Lee, you are recognized.
    Ms. Jackson Lee. Thank you for your indulgence and your 
courtesy extending me the moment to close. Let me give the 
thank you's to, first, three members, Congresswoman Garcia, 
Congressman Al Green, and myself may be the living example of 
civil rights laws, desegregation, because we started our life 
in a segregated America. We are, besides our own parents and 
God, we are here because laws of the federal government acted 
as hammers to make people do the right thing.
    So I am not embarrassed by the leadership of Judge Nadler 
and--I called him Judge Nadler--Chairman--maybe in another 
life----
    [Laughter.]
    Chairman Nadler and Chairman Cohen, who joined us here in 
this epicenter, in 2019, the year of return, for those of you 
who may not know, to provide the extra hammer.
    And Professor Morley, I hope in listening to your fellow 
panelists we can work together for you to understand not only 
the pain, but the legitimacy of a constitutional and federal 
hammer to ensure people do the right thing, because I have 
lived in Harris County over the years.
    I won an election at 12:00 midnight, and in the morning, I 
had lost. And I could win nothing. I could get no votes counted 
to be able to say, ``Didn't you win that election,'' but I lost 
it in the morning. And it was when African-Americans and 
Hispanics, few ran, and ran, and ran, and lost, and lost, and 
lost.
    The Honorable Barbara Jordan lost every race that she had 
until we passed a 1965 Voting Rights Act, and created 
redistricting that--districts that allowed her to represent one 
person, one vote.
    This is the historical Texas Southern University, a place 
that did not exist because there was no place for us to go, 
Hispanics or African-Americans.
    And so I would simply say, to put on the record, I want to 
put on the record H.R. 1, which prohibits voter caging, 
restores the voting franchise in federal elections in the 
formerly incarcerated persons, prohibits deceptive practices 
and voter intimidation, reaffirms Congress's commitment to 
restore the voting rights, which is what we are doing, and 
contains, among other things, several measures to combat 
congressional gerrymandering. Today, the courts rule that the 
Ohio redistricting was partisan and unconstitutional. It is 
happening every day.
    My final word is that every single one in this place--
Danny, thank you for being here. He is the only minority, I 
think, on the Harris County School Board, maybe, but in any 
event, problematic in their redistricting. But in any event, 
everyone has to be committed to exposing voter infractions, 
there is no fraud, but voter infractions, to help us build a 
case, not a false case, but a case of reality, so that we can 
truly empower people's right to vote.
    It hurts my heart that we are dealing with this, and 2020 
is going to be the year of the hack, the year of oppression, 
and suppression, unless this great body is able to do its work. 
So, I am grateful that we are here, but we will not be able to 
do it alone.
    Finally, in concluding, elections matter. The Trump 
Administration is in the Fifth Circuit right now arguing to 
take away your healthcare. They are there right now to take 
away your healthcare, because elections do matter. And 
elections matter because maybe in this judiciary committee we 
will be able to have a hearing on H.R. 40 reparations, because 
elections matter.
    Thank you all so very much for giving us the opportunity to 
have this historic hearing at Texas Southern University, 
Thurgood Marshall School of Law, which we are going to at this 
point. We are honored to be in your presence. Thank you all 
very much.
    Mr. Chairman, I yield back. Thank you so very much.
    Mr. Cohen. And with that, this hearing is adjourned.
    [Applause.]
    [Whereupon, at 12:54 p.m., the subcommittee was adjourned.]

      

                                APPENDIX

=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
</pre></body></html>
